                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Audit of EPA’s
                     Fiscal 2013 and 2012
                     Consolidated Financial
                     Statements
                     Report No. 14-1-0039                December 16, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Abbreviations

CIO             Chief Information Officer
EPA             U.S. Environmental Protection Agency
FFMIA           Federal Financial Management Improvement Act of 1996
FMFIA           Federal Managers’ Financial Integrity Act of 1982
FY              Fiscal Year
IP              Internet Protocol
OCFO            Office of the Chief Financial Officer
OEI             Office of Environmental Information
OIG             Office of Inspector General
OMB             Office of Management and Budget
POA&Ms          Plans of Action and Milestones
RSSI            Required Supplementary Stewardship Information
SOP             Standard Operating Procedure
SSC             Superfund State Contracts
VM              Vulnerability Management



Hotline 	                                      Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations,
us through one of the following methods:       contact us through one of the following methods:

email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:	   EPA Inspector General Hotline        write:    EPA Inspector General Hotline
          1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2431T 

          Washington, DC 20460
                          Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                          14-1-0039
                                                                                                 December 16, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Audit of EPA’s Fiscal 2013 and 2012
We performed this audit in          Consolidated Financial Statements
accordance with the Government
Management Reform Act, which         EPA Receives an Unqualified Opinion
requires the U.S. Environmental
Protection Agency (EPA) to          We rendered an unqualified opinion on the EPA’s 	       System weaknesses
prepare, and the Office of          Consolidated Financial Statements for fiscal 2013       could impact the
Inspector General to audit, the                                                             reliability of financial
                                    and 2012, meaning that they were fairly presented       information.
agency’s financial statements       and free of material misstatement.
each year. Our primary objectives
were to determine whether:           Internal Control Significant Deficiencies Noted
  EPA’s consolidated financial     We noted the following significant deficiencies:
   statements were fairly stated
   in all material respects.           EPA overstated Superfund State Contract credits.
  EPA’s internal controls over        EPA’s high number of accounting corrections indicates an internal control
   financial reporting were in          weakness.
   place.                              Internal controls over EPA’s accountable personal property inventory
  EPA management complied              process need improvements. 

   with applicable laws and            Software was improperly recorded in Compass. 

   regulations.                        EPA needs to improve access control procedures for key financial 

                                        systems.
The requirement for audited            EPA needs to improve processes for following up on identified network
financial statements was enacted        vulnerabilities.
to help bring about improvements
in agencies’ financial
                                     Noncompliance With Laws and Regulations Noted
management practices, systems
and controls so that timely,
                                    EPA’s high number of accounting corrections indicates an internal weakness.
reliable information is available
for managing federal programs.
                                     Recommendations and Planned Agency Corrective Actions
This report addresses the
following EPA theme:                The agency agreed with most of our findings and recommendations. However,
                                    the agency did not agree with our finding that the number of error corrections
                                    were high, an internal control weakness and an instance of noncompliance with
 Embracing EPA as a high
                                    the Federal Financial Management Improvement Act. The agency posted over
  performing organization.
                                    100 journal entries to correct posting model errors, and just one of those
For further information,            entries involved 206 transactions. While we do not believe the noncompliance
contact our public affairs office   rose to the level of substantial noncompliance, we consider the number of
at (202) 566-2391.                  errors at the transaction level to be high and an internal control weakness.

The full report is at:
www.epa.gov/oig/reports/2014/
20131216-14-1-0039.pdf
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460

                                                                                            OFFICE OF
                                                                                       INSPECTOR GENERAL




                                           December 16, 2013

MEMORANDUM

SUBJECT:	 Audit of EPA’s Fiscal 2013 and 2012 Consolidated Financial Statements
          Report No. 14-1-0039

FROM:          Paul C. Curtis
               Director, Financial Statement Audits

TO:	           Maryann Froehlich, Acting Chief Financial Officer
               Office of the Chief Financial Officer

               Craig E. Hooks, Assistant Administrator 

               Office of Administration and Resources Management 


               Cynthia Giles, Assistant Administrator 

               Office of Enforcement and Compliance Assurance 


Attached is our report on the U.S. Environmental Protection Agency’s (EPA’s) fiscal 2013 and 2012
consolidated financial statements. We are reporting six significant deficiencies, one of which is also a
noncompliance issue. Attachment 2 contains the status of recommendations related to significant
deficiencies reported in prior years’ reports. The significant deficiencies included in attachment 2 also
apply for fiscal 2013.

This audit report represents the opinion of the Office of Inspector General (OIG), and the findings in this
report do not necessarily represent the final EPA position. EPA managers, in accordance with
established EPA audit resolution procedures, will make final determinations on the findings in this audit
report. Accordingly, the findings described in this audit report are not binding upon the EPA in any
enforcement proceeding brought by the EPA or the Department of Justice. We have no objections to the
further release of this report to the public. This report will be available at http://www.epa.gov/oig.

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 60 calendar days of the final report date. The response should address all issues and
recommendations contained in attachments 1 and 2. For corrective actions planned but not completed by
the response date, reference to specific milestone dates will assist us in deciding whether to close this
report in our audit tracking system. Your response will be posted on the OIG’s public website, along
with our memorandum commenting on your response. Your response should be provided as an
Adobe PDF file that complies with the accessibility requirements of Section 508 of the Rehabilitation
Act of 1973, as amended. The final response should not contain data that you do not want to be released
to the public; if your response contains such data, you should identify the data for redaction or removal
along with corresponding justification.

Should you or your staff have any questions about the report, please contact Richard Eyermann,
Acting Assistant Inspector General for Audit, at (202) 566-0565; or me at (202) 566-2523.


Attachments


cc: See appendix III, Distribution
Audit of EPA’s Fiscal Year 2013 and 2012                                                                                         14-1-0039
Consolidated Financial Statements


                                       Table of Contents
Inspector General's Report on EPA’s Fiscal 2013 and
2012 Consolidated Financial Statements ........................................                                                         1


     Review of EPA’s Required Supplementary Stewardship Information, 

     Required Supplementary Information, Supplemental Information, and 

     Management’s Discussion and Analysis .......................................................................                       2


     Evaluation of Internal Controls ......................................................................................             2


     Tests of Compliance With Laws and Regulations .........................................................                            5


     Prior Audit Coverage.....................................................................................................          6


     Agency Comments and OIG Evaluation .......................................................................                         7



Attachments ............................................................................................................                8


     1. Internal Control Significant Deficiencies ..................................................................                    8


               EPA Overstated Superfund State Contract Credits...........................................                               9

               EPA’s High Number of Accounting Corrections Indicates an 

                  Internal Control Weakness .........................................................................                  10 

               Internal Controls Over EPA’s Accountable Personal Property 

                    Inventory Process Needs Improvements ...................................................                           13 

               Software Improperly Recorded in Compass......................................................                           15 

               EPA Needs to Improve Access Control Procedures for 

                  Key Financial Systems ...............................................................................                16 

               EPA Needs to Improve Processes for Following Up on 

                  Identified Network Vulnerabilities ...............................................................                   18 


     2. Status of Prior Audit Report Recommendations .....................................................                             21 


     3. Status of Current Recommendations and Potential Monetary Benefits ..................                                           24 



Appendices ..............................................................................................................              26


      I.       EPA’s Fiscal 2013 and 2012 Consolidated Financial Statements .....................                                      26 


     II.       Agency Response to Draft Report.....................................................................                    84 


     III.      Distribution ........................................................................................................   93

     Inspector General’s Report on EPA’s Fiscal 2013 

       and 2012 Consolidated Financial Statements 

The Administrator
U.S. Environmental Protection Agency

We have audited the consolidated balance sheet of the U.S. Environmental Protection Agency
(EPA) as of September 30, 2013, and September 30, 2012, and the related consolidated
statements of net cost, net cost by goal, changes in net position, and custodial activity; and the
combined statement of budgetary resources for the years then ended. These financial statements
are the responsibility of EPA management. Our responsibility is to express an opinion on these
financial statements based upon our audit.

We conducted our audit in accordance with generally accepted government auditing standards;
the standards applicable to financial statements contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and Office of Management and Budget
(OMB) Bulletin 14-02, Audit Requirements for Federal Financial Statements, dated October 21,
2013. These standards require that we plan and perform the audit to obtain reasonable assurance
about whether the financial statements are free of material misstatements. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audit provides a reasonable basis for our opinion.

The financial statements include expenses of grantees, contractors and other federal agencies.
Our audit work pertaining to these expenses included testing only within the EPA. The
U.S. Treasury collects and accounts for excise taxes that are deposited into the Leaking
Underground Storage Tank Trust Fund. The U.S. Treasury is also responsible for investing
amounts not needed for current disbursements and transferring funds to the EPA as authorized in
legislation. Since the U.S. Treasury, and not the EPA, is responsible for these activities, our audit
work did not cover these activities.

The Office of Inspector General (OIG) is not independent with respect to amounts pertaining to
OIG operations that are presented in the financial statements. The amounts included for the OIG
are not material to the EPA’s financial statements. The OIG is organizationally independent with
respect to all other aspects of the agency’s activities.

In our opinion, the consolidated financial statements, including the accompanying notes, present
fairly, in all material respects, the consolidated assets, liabilities, net position, net cost, net cost
by goal, changes in net position, custodial activity, and combined budgetary resources of EPA as
of and for the years ended September 30, 2013 and 2012, in conformity with accounting
principles generally accepted in the United States of America.




14-1-0039                                                                                              1
Review of EPA’s Required Supplementary Stewardship Information,
Required Supplementary Information, Supplemental Information, and
Management’s Discussion and Analysis
We obtained information from the EPA management about its methods for preparing
Required Supplementary Stewardship Information (RSSI), Required Supplementary Information,
Supplemental Information, and Management’s Discussion and Analysis, and reviewed this
information for consistency with the financial statements. The Supplemental Information
previously included the unaudited Superfund Trust Fund financial statements and certain
footnotes. The agency has decided to omit those statements for fiscal 2013 and removed the
previously published 2012 statements. The Superfund statements were presented for additional
analysis and are not a required part of the basic financial statements. Our audit was not designed
to express an opinion and, accordingly, we do not express an opinion on the EPA’s RSSI,
Required Supplementary Information, Supplemental Information, and Management’s Discussion
and Analysis.

We did not identify any material inconsistencies between the information presented in the EPA’s
consolidated financial statements and the information presented in the EPA’s RSSI, Required
Supplementary Information, Supplemental Information, and Management’s Discussion and
Analysis.

Evaluation of Internal Controls
As defined by OMB, internal control, as it relates to the financial statements, is a process,
affected by the agency’s management and other personnel, that is designed to provide reasonable
assurance that the following objectives are met:

   Reliability of financial reporting—Transactions are properly recorded, processed and
   summarized to permit the preparation of the financial statements in accordance with
   generally accepted accounting principles, and assets are safeguarded against loss from
   unauthorized acquisition, use or disposition.

   Compliance with applicable laws, regulations and government-wide policies—
   Transactions are executed in accordance with laws governing the use of budget authority,
   government-wide policies, laws identified by OMB, and other laws and regulations that
   could have a direct and material effect on the financial statements.

In planning and performing our audit, we considered the EPA’s internal controls over financial
reporting by obtaining an understanding of the agency’s internal controls, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of
controls. We did this as a basis for designing our auditing procedures for the purpose of
expressing an opinion on the financial statements and to comply with OMB audit guidance, not
to express an opinion on internal control. Accordingly, we do not express an opinion on internal
control over financial reporting nor on management’s assertion on internal controls included in
Management’s Discussion and Analysis. We limited our internal control testing to those controls
necessary to achieve the objectives described in OMB Bulletin No. 14-02, Audit Requirements


14-1-0039                                                                                       2
for Federal Financial Statements, dated October 21, 2013. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982 (FMFIA), such as those controls relevant to ensuring efficient operations.

Our consideration of the internal controls over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be significant deficiencies.
Under standards issued by the American Institute of Certified Public Accountants, a significant
deficiency is a deficiency, or combination of deficiencies, that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance. A material
weakness is a deficiency, or combination of deficiencies, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected in a timely manner. Because of inherent limitations in internal controls,
misstatements, losses or noncompliance may nevertheless occur and not be detected. We noted
certain matters discussed below involving the internal control and its operation that we consider
to be significant deficiencies, none of which are considered to be material weaknesses. These
significant deficiencies are summarized below and detailed in attachment 1.

       EPA Overstated Superfund State Contract Credits

       The EPA overstated the value of Superfund State Contract credits available to reduce
       state shares of remedial action costs by $15 million. The EPA’s calculated credits were
       $25.7 million as of June 30, 2013, but the general ledger showed a balance of
       $40.7 million for Superfund State Contract credits. The overstatement would misstate the
       EPA’s footnote disclosure and could mislead financial statement users.

       EPA’s High Number of Accounting Corrections Indicates an Internal
       Control Weakness

       The EPA made numerous manual journal voucher entries in fiscal year (FY) 2013, of
       which over 100 were to correct transaction level errors in the accounting system. OMB
       directs agencies to apply the United States standard general ledger at the transaction level
       to generate appropriate general ledger accounts for posting transactions. The EPA made
       the accounting corrections due to posting model and other system configuration errors.
       Although the EPA corrected the errors that the EPA and the OIG identified, the high
       number of corrections diminishes the reliability of the EPA’s accounting system to
       process transactions accurately. Without a diligent review of posting models, errors could
       occur at the transaction level, impacting the reliability of financial information and
       increasing the risk that the financial statements could be misstated.

       Internal Controls Over EPA’s Accountable Personal Property Inventory
       Process Needs Improvements

       We found an $11.5 million difference in accountable personal property, including
       $7 million of capitalized property, between the agency’s property management system
       (Maximo) and its FY 2013 property certification letters. In addition, our examination
       found that the EPA did not perform a complete inventory of $3.7 million of sensitive



14-1-0039                                                                                          3
       accountable personal property purchased in the last quarter of FY 2013. As a result,
       Maximo is missing detailed records for this property and such property is not included in
       the EPA’s property certification letters. The EPA requires accountable personal property
       to be inventoried annually and equipment to have decals and added to Maximo when
       acquired. Various factors contributed to Maximo being incomplete and inaccurate;
       however, the primary cause was that the EPA’s details within Maximo were not updated
       timely. The agency’s capitalized property financial activity (which is part of the
       accountable personal property) is dependent upon property management officers
       maintaining an accurate inventory of capitalized property. Inaccurate accountable
       personal property records could compromise the EPA’s property control system, impact
       the accuracy of the agency’s financial statements, and result in the loss or
       misappropriation of assets.

       Software Improperly Recorded in Compass

       The EPA Software In Development and Loss On Disposition accounts were misstated by
       $36 million. Federal regulations require agencies to have systems that record and
       generate accurate financial information. The posting model applied to the transaction
       impacted the wrong accounts. The misstatement impacts the accuracy and reliability of
       information reported in the EPA’s financial statements.

       EPA Needs to Improve Access Control Procedures for
       Key Financial Systems

       The EPA did not maintain up-to-date system access control lists for two key Office of the
       Chief Financial Officer (OCFO) financial systems. We found that users had access to
       these information systems for at least one year longer than their job duties required.
       Specifically, a contractor maintained privileged database administrator access to the
       production server controlling the interface to the EPA’s core financial application. We also
       had concern regarding separation of duties because a system developer maintained a data
       creation account on another key financial application. In both instances, the EPA resolved
       these two access control violations uncovered during our audit.

       EPA Needs to Improve Processes for Following Up on
       Identified Network Vulnerabilities

       The process for resolving and tracking network vulnerabilities for OCFO was not
       operating in accordance with agency policy. In particular, OCFO failed to notify the Office
       of Environmental Information within the required 30-day resolution timeframe of high-risk
       vulnerabilities that the Office of Environmental Information incorrectly identified as
       belonging to the OCFO network. OCFO lacked a documented process for its internal staff
       to follow when reviewing the monthly vulnerability management reports. As such, OCFO
       received monthly vulnerability reports, but the reports were not distributed to personnel
       knowledgeable on how to take action or to provide status reports on vulnerability
       remediation activities.




14-1-0039                                                                                         4
Attachment 3 contains the status of issues reported in prior years’ reports. The issues included in
attachment 3 should be considered among the EPA’s significant deficiencies for FY 2013.
We reported to the agency on less significant internal control matters in writing during the course
of the audit. We will not issue a separate management letter.

Comparison of EPA’s FMFIA Report With Our Evaluation of Internal Controls

OMB Bulletin No. 14-02, Audit Requirements for Federal Financial Statements, dated
October 21, 2013, requires the OIG to compare material weaknesses disclosed during the audit
with those material weaknesses reported in the agency’s FMFIA report that relate to the financial
statements, and identify material weaknesses disclosed by the audit that were not reported in the
agency’s FMFIA report.

For financial statement audit and financial reporting purposes, OMB defines material weaknesses
in internal control as a deficiency or combination of deficiencies in internal control such that
there is a reasonable possibility that a material misstatement of the entity’s financial statements
will not be prevented, or detected and corrected, on a timely basis.

The agency reported that no material weaknesses had been found in the design or operation of
internal controls over financial reporting as of June 30, 2013. We did not identify any material
weaknesses during the course of our audit. Details concerning our findings on significant
deficiencies can be found in attachment 1.

Tests of Compliance With Laws and Regulations
The EPA management is responsible for complying with laws and regulations applicable to the
agency. As part of obtaining reasonable assurance about whether the agency’s financial
statements are free of material misstatement, we performed tests of its compliance with certain
provisions of laws and regulations, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain other laws and
regulations specified in OMB Bulletin No. 14-02, Audit Requirements for Federal Financial
Statements, dated October 21, 2013. The OMB guidance requires that we evaluate compliance
with federal financial management system requirements, including the requirements referred to
in the Federal Financial Management Improvement Act of 1996 (FFMIA). We limited our tests
of compliance to these provisions and did not test compliance with all laws and regulations
applicable to the EPA.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion. A number of ongoing
investigations involving the EPA’s grantees and contractors could disclose violations of laws and
regulations, but a determination about these cases has not been made.

FFMIA Noncompliance

Under FFMIA, we are required to report whether the agency’s financial management systems
substantially comply with the federal financial management systems requirements, applicable


14-1-0039                                                                                          5
federal accounting standards, and the United States Government Standard General Ledger at the
transaction level. To meet the FFMIA requirement, we performed tests of compliance with
FFMIA Section 803(a) requirements and used the OMB guidance, Memorandum M-09-06-23,
Implementation Guidance for the Federal Financial Management Improvement Act, dated
January 9, 2009, for determining substantial noncompliance with FFMIA.

The results of our tests did not disclose any instances where the agency’s financial management
systems did not substantially comply with the applicable federal accounting standard.

We found that the agency had a high number of accounting corrections due to posting model and
other system errors at the transaction level. However, we do not believe that the errors we found
reached the level of substantial non compliance as described in OMB guidance. We also reported
this issue as a significant deficiency in attachment 1. The results of our tests did not disclose any
other instances of noncompliance with FFMIA requirements.

No other significant matters involving compliance with laws and regulations came to our
attention during the course of the audit. We will not issue a separate management letter.

Our audit work was also performed to meet the requirements in 42 U.S. Code §9611(k) with
respect to the Hazardous Substance Superfund Trust Fund, to conduct an annual audit of
payments, obligations, reimbursements or other uses of the fund. The significant deficiencies
reported above also relate to Superfund.

Prior Audit Coverage
During previous financial or financial-related audits, we reported weaknesses that impacted our
audit objectives in the following areas:

      Compass system limitations.
      Posting models materially misstating general ledger activity and balances.
      Compass reporting limitations.
      Controls over expense accrual reversals.
      Accounts receivables internal controls.
      Fund Balance with Treasury Statement of Audit Differences not clearing timely.
      Property internal controls.
      Compass and Maximo not reconciling.
      System vulnerabilities.
      OCFO financial systems documentation.
      Compass service provider’s controls over business processes.

Attachment 2 summarizes the current status of corrective actions taken on prior audit report
recommendations related to these issues.




14-1-0039                                                                                           6
Agency Comments and OIG Evaluation
In a memorandum received December 13, 2013, the acting Chief Financial Officer responded to
our draft report.

The rationale for our conclusions and a summary of the agency comments are included in
the appropriate sections of this report, and the agency’s complete response is included as
appendix II to this report.

This report is intended solely for the information and use of the management of the EPA, OMB,
and Congress, and is not intended to be and should not be used by anyone other than these
specified parties.



                                             Paul C. Curtis
                                             Director, Financial Statement Audits
                                             Office of Inspector General
                                             U.S. Environmental Protection Agency
                                             December 16, 2013




14-1-0039                                                                                       7
                                                                                                        Attachment 1 


              Internal Control Significant Deficiencies

                                             Table of Contents


   1   EPA Overstated Superfund State Contract Credits ..............................................                    9


   2   EPA’s High Number of Accounting Corrections Indicates an 

       Internal Control Weakness ..................................................................................... 10


   3   Internal Controls Over EPA’s Accountable Personal Property

       Inventory Process Needs Improvements............................................................... 13


   4   Software Improperly Recorded in Compass.......................................................... 15 


   5   EPA Needs to Improve Access Control Procedures for 

       Key Financial Systems ........................................................................................... 16


   6   EPA Needs to Improve Processes for Following Up on 

       Identified Network Vulnerabilities .......................................................................... 18 





14-1-0039                                                                                                                      8
1 – EPA Overstated Superfund State Contract Credits
The EPA overstated the value of Superfund State Contract (SSC) credits available to reduce state
shares of remedial action costs by $15 million. The EPA’s calculated credits were $25.7 million
as of June 30, 2013, but the general ledger showed a balance of $40.7 million for SSC credits.
The overstatement would misstate the EPA’s footnote disclosure and could mislead financial
statement users.

Under Section 104(c)(5)(A) of the Comprehensive Environmental Response, Compensation, and
Liability Act of 1980, the federal government shall grant credits to states for amounts they
expend for remedial action. EPA Comptroller Policy Announcement No. 99-01, dated
December 23, 1998, states that all approved SSC credit amounts will be recorded and tracked in
the general ledger. The account with credits earned for the year will close at year-end to the
account that reflects the liability for available credits.

The overstatement occurred because the EPA did not properly close the SSC credit accounts at
the end of FY 2012. The EPA disclosed the correct amount of SSC credits in the FY 2012
footnote to the financial statements. However, the EPA did not properly set up the year-end
closing entries and posted entries that reduced EPA’s credits earned during FY 2012 instead of
EPA’s cumulative liability for credits. Therefore, FY 2013 opened with a $15 million
overstatement of the cumulative liability for credits. The EPA’s general ledger overstated the
cumulative state credits by $15 million; without a correcting entry, the footnote to the financial
statements for state credits would misstate the cumulative credits at the end of FY 2013.
The footnote disclosures must be accurate because they are an integral part of the financial
statements, and a misstatement could mislead financial statement users.

After we notified the EPA of the error, the EPA addressed the cause of the error and posted an
entry to correct the account balances. Therefore, we make no recommendations.

Agency Comments and OIG Evaluation
The agency did not respond to this issue. However, since the EPA addressed the cause of the
error and corrected the balances, we determined the agency agreed with our finding.




14-1-0039                                                                                            9
2 – EPA’s High Number of Accounting Corrections Indicates an
    Internal Control Weakness
The EPA made numerous manual journal voucher entries in FY 2013, of which over 100 were to
correct transaction level errors in the accounting system. OMB directs agencies to apply the
United States standard general ledger at the transaction level to generate appropriate general
ledger accounts for posting transactions. The EPA made the accounting corrections due to
posting model and other system configuration errors. Although the EPA corrected the errors that
the EPA and the OIG identified, the high number of corrections diminishes the reliability of the
EPA’s accounting system to process transactions accurately. Without a diligent review of posting
models, errors could occur at the transaction level, impacting the reliability of financial
information and increasing the risk that the financial statements could be misstated.

The EPA’s manual journal voucher entries included corrections for the following types of
transaction level errors:

   	 Posting model errors, including:
          Misclassification of direct appropriations and reimbursable authority.
          Misclassification of federal and non-federal activity.
          Misclassification of new obligations as upward or downward adjustments of prior
             year obligations.
          Misclassification of property accounts related to software in development. 

    Erroneous journal voucher entries. 

    Other system configuration errors, such as implied posting models. 


The EPA misclassified $89.5 million of new obligations at the transaction level because posting
model errors incorrectly impacted the upward adjustments of prior year obligations 206 times.
The errors significantly impacted general ledger balances. The EPA has not corrected the
obligations posting model and continues to adjust the misstated balances.

The OMB’s Memorandum M-09-06, Implementation Guidance for the Federal Financial
Management Improvement Act, directs federal agencies to apply the United States standard
general ledger at the transaction level to generate appropriate general ledger accounts for posting
transactions. Federal government internal control standards require accurate and timely recording
of transactions.

In October 2011, the EPA replaced its accounting system with a new system, Compass
Financials (Compass). Following the conversion to Compass, the EPA has experienced posting
model and other system configuration errors. We previously reported on the posting model errors
we found in our FY 2012 audit. At that time the agency did not agree that incorrect posting
models resulted in material misstated general ledger activity and balances. The agency stated that
it has aggressively reviewed posting models to ensure that transactions are properly posting to
the EPA’s financial accounts and will continue to do so. However, during FY 2013 we continued
to find posting model errors. While the agency has corrected certain errors by posting journal
vouchers, until they conduct a diligent review of the posting models, such errors will continue to
occur.



14-1-0039                                                                                       10
Without a diligent review of posting models, errors could occur at the transaction level. The EPA
has limited assurance that the accounting system can process transactions accurately and the
account balances and financial statements are accurate. Due to the high number of transaction
level errors and corrections, we do not believe the EPA is in compliance with FFMIA. However,
we do not believe that the errors we found reached the level of substantial noncompliance as
described in OMB guidance. Agencies are required to post transactions to appropriate general
ledger accounts at the transaction level, but the EPA posting models misclassified a high number
of transaction-level entries that significantly impacted the general ledger balances.

Recommendations
We recommend that the Chief Financial Officer:

   1.	 Perform a thorough review of posting models and financial system configurations to
       ensure the proper accounts are impacted.

   2.	 Perform quarterly analytical reviews of account activity at the transaction level to verify
       that the activity is reasonable.

Agency Comments and OIG Evaluation
The agency concurred with our recommendation to perform quarterly analytical reviews of
account activity but it did not concur with our recommendation to perform a thorough review of
posting models. The agency maintained that it already has an established process for regularly
reviewing posting models. We do not believe the agency’s review process was effective because
errors from posting models continued throughout FY 2013 with the EPA making journal voucher
corrections as we notified them of errors.

We believe that the EPA is not in compliance with FFMIA because of the high number of
transaction level errors. The EPA stated that it disagreed that the number of corrections was high.
We found that over 100 of the journal voucher corrections were to correct posting models. Just
one of the corrections consisted of 206 transaction errors. While we could not determine the total
number of transaction level errors that made up all of the correcting entries, what we did find
indicated the problem was more than inconsequential. Accordingly, the EPA’s posting models
misclassified a high number of transaction level entries that significantly impacted the general
ledger balances. According to OMB, FFMIA compliance indicates that systems routinely
provide reliable financial information consistently, accurately and uniformly. When a financial
statement audit identifies a persistent significant deficiency, the agency must demonstrate that
the deficiency does not have any impact on providing reliable and timely financial information.

While the agency did adjust for the errors so that the year-end financial statements were fairly
stated, we believe that the EPA’s posting model errors have persistently and adversely impacted
the capability of the EPA’s Compass financial management system to provide reliable financial
information. The EPA claims that Compass does provide reliable financial information. We
disagree because throughout FY 2013 the Compass posting model errors generated transaction
level entries that caused significant misstatements to general ledger balances. Without making
significant corrections to the system, the EPA could not have obtained reliable financial


14-1-0039                                                                                        11
information. The EPA claimed that making posting model changes through its disciplined
configuration management process is an integral part of complying with the Federal Information
System Management Act requirements, which is an indicator of FFMIA compliance. We believe
that performing a thorough review of posting models would be a more effective method of
correcting system errors and achieving FFMIA compliance.




14-1-0039                                                                                   12
3 – Internal Controls Over EPA’s Accountable Personal Property
    Inventory Process Needs Improvements
We found an $11.5 million difference in accountable personal property, including $7 million of
capitalized property, between the agency’s property management system (Maximo) and its
FY 2013 property certification letters. In addition, our examination found the EPA did not
perform a complete inventory of $3.7 million of sensitive accountable personal property
purchased in the last quarter of FY 2013. As a result, Maximo is missing detailed records for this
property and such property is not included in the EPA’s property certification letters. The EPA
requires accountable personal property to be inventoried annually and equipment to have decals
and added to Maximo when acquired. Various factors contributed to Maximo being incomplete
and inaccurate; however, the primary cause was that the EPA’s details within Maximo were not
updated timely. The agency’s capitalized property financial activity (which is part of the
accountable personal property) is dependent upon property management officers maintaining an
accurate inventory of capitalized property. Inaccurate accountable personal property records
could compromise the EPA’s property control system, impact the accuracy of the agency’s
financial statements, and result in the loss or misappropriation of assets.

At the time of our examination we found that the EPA’s property management system was
incomplete or inaccurate based on its FY 2013 inventory. For example, the EPA did not
inventory $3.7 million of sensitive personal property that was part of a contract buy-out.
Sensitive items as defined in the EPA’s Personal Property and Procedures Manual, section
3.2.7, Sensitive Items, “are nonexpendable items (EPA owned or leased) that may be converted
to private use or have a high potential for theft, must be recorded and controlled as accountable
property. This type of accountability requires property to be tracked throughout its life cycle
regardless of cost or value.” In addition to the $3.7 million not inventoried, a total of 2,097
records totaling $11.5 million, including 87 items totaling $7 million of capitalized property,
have not been updated in Maximo. Property managers can request a Board of Survey be held to
review the circumstances of missing property. The Board of Survey can determine if the property
should be removed from the property system inventory or referred for investigation. According
to the agency’s Property Officer, a Board of Survey for one of the largest accountable areas
(Washington D.C.) has not been held for the last two years. These factors contributed to
incomplete inventory records as of September 30, 2013.

The Facilities Management and Services Division is responsible for administering the EPA
Personal Property Management Program. The EPA’s Personal Property and Procedures
Manual, Section 3.2.1, defines accountable personal property as “Personal property with an
acquisition cost of $5,000 or more, all leased personal property, and sensitive items.” Section
3.1.1, states that “Each AA’s [Accountable Area] personal property records must be maintained
in IFMS [IFMS, the Integrated Financial Management System, has been replaced by Compass
and includes a fixed asset subsystem which is updated by Maximo], thus providing all needed
data for effective personal property management (i.e. location, procurement, utilization,
disposal.)”

The agency’s capitalized property financial activity is dependent upon property management
officers maintaining an accurate inventory of capitalized items at the EPA. The $11.5 million
difference between the property certification letters and Maximo indicate that accurate personal


14-1-0039                                                                                       13
property records are not being maintained in the agency’s official property system. Inaccurate
personal property records compromise the EPA’s property control system and can lead to the
loss or misappropriation of agency assets and possible misstatements within the financial
statements.

Recommendations
We recommend that the Assistant Administrator for Administration and Resources Management
require the Director, Facilities Management and Services Division, to:

   3.	 Establish timeframes that property records are to be entered or updated when a new
       accountable personal property item is received or inventoried, relocated, transferred or no
       longer in the EPA’s custody.

   4.	 Determine and resolve the issue of missing personal property records not in agency’s
       official property system.

   5.	 Verify capital assets are updated in Maximo (including new equipment, surplused and no
       longer in the EPA’s custody).

   6.	 Hold a Board of Survey to address missing items.

Agency Comments and OIG Evaluation
The agency agreed with our findings and recommendations.




14-1-0039                                                                                        14
4 – Software Improperly Recorded in Compass
The EPA’s Software In Development and Loss On Disposition accounts were misstated by
$36 million. Federal regulations require agencies to have systems that record and generate
accurate financial information. The posting model applied to the transaction impacted the wrong
accounts. The misstatement impacts the accuracy and reliability of information reported in the
EPA’s financial statements.

FFMIA emphasizes the need for agencies to have systems that can generate timely, accurate and
useful information which managers can rely on to make informed decisions and ensure
accountability on an ongoing basis. The U.S. Government Accountability Office’s Standards for
Internal Control in the Federal Government defines the five standards for the minimum level of
quality acceptable for internal control in government. The standard for Control Activities
requires accurate and timely recording of transactions and events.

Every year, the EPA transfers software going on-line from the Software in Development account
to the software in production account. Compass posting model FD01 Fixed Asset Disposition
was used to transfer the software out of the development account and reacquire it into the
production account. However, the posting model erroneously impacted revenue and cost offset
accounts. When notified of the posting model, the EPA prepared two journal vouchers that
corrected the revenue account balance. However, the offset account remained understated
resulting in an overstatement to the Loss On Disposition of Assets account. The amount of the
under- and overstatements to each account is in excess of $36 million. Posting models that
impact the wrong accounts will result in inaccurate financial information that can adversely
impact the EPA’s financial reporting and cost additional time and resources to find and correct
the errors.

Recommendation
We recommend that the Chief Financial Officer:

   7.	 Require the Director of the Office of Technology Solutions to work with the Compass
       contractor to correct the FD01 model posting error.

Agency Comments and OIG Evaluation
The agency did not concur with our finding. The agency believes it was human error and not a
posting model error that caused software to be improperly recorded in Compass. Regardless of
the cause of the error, multiple transactions occurred resulting in a $36 million misstatement,
which had to be corrected. The agency stated that staff will receive refresher training in FY 2014
for recording software transfers from the development to the production account. In addition,
OCFO indicated it will review and analyze FD01 transactions for actual disposal entries in
FY 2014.




14-1-0039                                                                                       15
5 – EPA Needs to Improve Access Control Procedures for
    Key Financial Systems
The EPA did not maintain up-to-date system access control lists for two key OCFO financial
systems. We found that users had access to these information systems for at least one year longer
than their job duties required. Specifically, a contractor maintained privileged database
administrator access to the production server controlling the interface to the EPA’s core financial
application. We also had concern regarding separation of duties because a system developer
maintained a data creation account on another key financial application. In both instances, the EPA
resolved these two access control violations uncovered during our audit.

EPA Chief Information Officer (CIO) Transmittal No. 12-003, Information Security –
Interim Access Control Procedures, V3.2, July 13, 2012, states that the agency must manage
information system accounts through a life cycle consisting of establishing, activating and
modifying accounts; periodically reviewing accounts; and disabling, removing or terminating
accounts. This guidance requires, in part, that the agency review access controls every 30 days to
ensure access lists are up-to-date and that users have only the system privileges needed to
perform their assigned duties.

EPA management did not ensure personnel followed access control procedures outlined in
EPA CIO Transmittal No. 12-003 for granting, monitoring and removing access to its
systems/servers. For instance, in June 2012, an Office of Environmental Information (OEI)
contractor transferred from the database administrator group to another group under the same EPA
contract but was no longer required privileged access. In another instance, one department within
the OCFO Office of Technology Solutions took over the responsibility of maintaining access
control of OCFO payment systems. Previously, another Office of Technology Solutions
department was responsible for this systems’ access control, as well as software development. In
both cases, EPA management did not ensure that responsible personnel updated access control lists
to the OCFO systems/servers in question.

If agency personnel do not follow access control procedures, there is uncertainty as to whether
all OCFO system access privileges are up-to-date, and whether security controls necessary to
protect the confidentiality, integrity and availability of the EPA’s financial data are in place.
Additionally, management may be unaware of unnecessary or unauthorized access to agency
systems, leaving no assurance of the reliability of data on the information systems and placing
the agency systems at unnecessary risk.

Recommendations
We recommend that the Assistant Administrator for Environmental Information and the
Chief Financial Officer:

   8.	 Conduct reviews of the access control lists for all agency financial applications under
       their responsibility to ensure they are up-to-date and reflect the current necessary system
       privileges of personnel.




14-1-0039                                                                                           16
   9.	 Issue a memorandum to personnel responsible for controlling access to financial systems
       emphasizing the importance of following access control procedures – specifically,
       periodic access reviews and proper access removal.

Agency Comments and OIG Evaluation
The agency agreed with our findings and recommendations.




14-1-0039                                                                                   17
6 – EPA Needs to Improve Processes for Following Up on
    Identified Network Vulnerabilities
The process for resolving and tracking network vulnerabilities for OCFO was not operating in
accordance with agency policy. In particular, OCFO failed to notify the OEI within the required
30-day resolution timeframe of high-risk vulnerabilities that OEI incorrectly identified as
belonging to the OCFO network. OCFO lacked a documented process for its internal staff to
follow when reviewing the monthly vulnerability management reports. As such, OCFO received
monthly vulnerability reports but the reports were not distributed to personnel knowledgeable on
how to take action or to provide status reports on vulnerability remediation activities.

On February 15, 2013, OEI published a Standard Operating Procedure (SOP), Vulnerability
Management Program, to describe regularly recurring activities for the agency’s Vulnerability
Management (VM) Program. OEI’s VM Program reports vulnerabilities found on networked
resources to EPA offices on a monthly basis. OCFO is responsible for monitoring all high-risk
vulnerabilities included on its monthly VM report and ensuring they relate to OCFO-networked
resources. The VM SOP requires offices receiving monthly scans to remediate network
vulnerabilities labeled as “high” risk within 30 days of the scan report date. If the high-risk
vulnerabilities cannot be remediated within the required 30 days, offices must enter Plans of Action
and Milestones (POA&Ms) into the EPA’s vulnerability tracking system to ensure the agency is
monitoring the vulnerability and that a resolution is in progress with documented milestone dates.

OEI had not provided training to the agency staff within each office responsible for receiving and
following up on identified vulnerabilities to ensure the responsible individual understood
responsibilities for managing identified vulnerabilities. While OEI published the VM SOP that
outlines roles and responsibilities, it did not provide details to inform responsible personnel on
how to review the provided VM report and what actions to take with the identified vulnerabilities.
Additionally, OCFO did not have a documented process in place to review the VM report to
ensure all high-risk vulnerabilities are assigned within OCFO or that feedback is provided to OEI
informing it that listed high-risk vulnerabilities do not correlate to OCFO information technology
assets. OCFO lacks a complete inventory of its information technology assets to identify which
vulnerabilities listed on the VM report belong to OCFO. According to the OCFO representative
responsible for overseeing OCFO’s VM program, OCFO was unaware of which systems or
servers correlated with the Internet Protocol (IP) addresses communicated by the VM report. Our
analysis disclosed that the VM report lacked a direct correlation, or common attribute, linking
vulnerabilities reported on the monthly VM report to the POA&M entries in the agency’s
vulnerability tracking system. We noted that the monthly VM reports identify vulnerabilities by
IP address, while the POA&M entries are organized by server or system name and do not contain
specific IP addresses.

The lack of effective response to identified vulnerabilities can adversely affect the agency’s
network. As noted in table 1, our analysis showed that the weaknesses in the VM process
resulted in four high-risk vulnerabilities unresolved within the 30-day timeframe. Personnel
unfamiliar with the specific IP addresses associated with their offices’ production servers were
not reviewing monthly scan reports completely to ensure vulnerabilities belonged to OCFO
systems. If high-risk vulnerabilities such as these go unresolved, they could be exploited to cause
critical system flaws that are likely to have a significant impact on financial data and reporting.


14-1-0039                                                                                       18
These weaknesses could result in unauthorized access to the production servers for financial
applications and expose agency data, information and configurations to unnecessary risk.

Table 1: High-risk vulnerabilities from monthly VM report that remained unresolved after 30 days
                                            Identified in Identified in     # of IP address
 Vulnerability Name                         March 2013      April 2013   vulnerabilities found
 SMTP Open Mail Relay                             √              √                  2
 Open SSH buffer_init Buffer Management
                                                  √              √                  1
 Vulnerabilities
 Microsoft IIS hit-highlighting Remote
                                                  √              √                  1
 Security Bypass Vulnerability
 Total                                                                              4
Source: OIG analysis.
   SMTP: Simple Main Transfer Protocol

   Open SSH buffer_init Buffer: Open Secure Shell Buffer Initialize Buffer

   Microsoft IIS: Microsoft Internet Information Server 


It is incumbent upon OCFO officials to have a process to train staff involved in the VM process
to ensure that vulnerabilities on OCFO networked resources are properly identified, tracked and
remediated in the required timeframe.

Recommendations
We recommend that the Chief Financial Officer:

    10. Develop a detailed listing of all OCFO information technology assets by IP address,
        system name and server name. Provide the OCFO staff in charge of receiving and
        analyzing monthly VM reports with the detailed listing of information technology assets.
        The detailed listing should include all OCFO information technology assets under OCFO
        operational control, as well as information technology assets operated on behalf of OCFO
        within and external to the agency.

    11. Issue a memorandum to OCFO staff involved in the monthly VM process reiterating the
        importance of following roles and responsibilities outlined in the VM SOP. Specifically,
        the memorandum should stress the importance of communicating, to OEI, IP addresses
        that do not belong to OCFO so they are no longer included in OCFO’s monthly reports.
        The memorandum should also specify timelines when responsible personnel must update
        the POA&M information in the agency’s vulnerability tracking system and report the
        status of actions taken to OCFO’s primary ISO.

We recommend that the Assistant Administrator for Environmental Information and
Chief Information Officer:

    12. Conduct training for staff in charge of receiving and analyzing monthly VM reports to
        ensure they are knowledgeable of the agency’s remediation process for vulnerabilities.
        This training should included specific information on how to review the provided VM
        report and what actions offices must take regarding the identified vulnerabilities.




14-1-0039                                                                                        19
Agency Comments and OIG Evaluation

The agency concurred with our findings and recommendations. The agency stated it will develop
training for staff responsible for receiving and analyzing the monthly VM reports, and make it
available through the agency’s enterprise training tool. While the OIG agrees with the agency's
approach for conducting the training, we believe the developed training should be required for all
personnel responsible for reviewing the VM reports and tracked to ensure all responsible
personnel take the training.




14-1-0039                                                                                      20
                                                                                        Attachment 2

       Status of Prior Audit Report Recommendations
The EPA is continuing to strengthen its audit management to address audit follow-up issues and
complete corrective actions expeditiously and effectively to improve environmental results. The
Chief Financial Officer is the agency follow-up official and is responsible for ensuring that
corrective actions are implemented. EPA Manual 2750, Audit Management Procedures, is a
comprehensive audit management guide that addresses OIG, U.S. Government Accountability
Office, and Defense Contract Audit Agency audits. OCFO continued to issue a quarterly report
that highlights the status of management decisions and corrective actions. This report is shared
with program office and regional managers throughout the agency to keep them informed of the
status of progress on their audits. Additionally, OCFO continued to conduct reviews of national
and program offices, which it initiated in fiscal 2009. The reviews focus on offices’ audit
follow-up procedures and their use of the Management Audit Tracking System, or MATS. The
reviews are designed to promote sound audit management; increase agency awareness of, and
accountability for, completing unimplemented corrective actions; and ensure that audit follow-up
data are accurate and complete. OCFO completed 4 of these on-site reviews in fiscal 2013,
including 2 regional offices and 2 national program offices. These reviews will be performed on
an ongoing, rotating basis.

The agency has continued to make progress in completing corrective actions from prior years.
The status of issues from prior financial statement audits and other audits with findings and
recommendations that could have a material effect on the financial statements, and have
corrective actions that are not completed or have not been demonstrated to be fully effective, are
listed in the following table.

Table 2: Significant deficiencies—Issues not fully resolved
  Posting Models in Compass Materially Misstated GL Activities and Balances
    In FY 2012, the EPA materially misstated general ledger activity and balances due to incorrect
    posting models. The EPA corrected posting model errors that were identified during FY 2012.
    However, during FY 2013 we continued to find posting model errors. While the agency has corrected
    the errors identified in FY 2013, such errors will continue to occur until the EPA conducts a diligent
    review of the posting models. The EPA has implemented corrective actions to correct activity in
    accounts incorrectly impacted by improper posting models, develop internal control procedures to
    confirm the proper accounts are impacted for transactions, and to perform analytical reviews of
    account activity on a quarterly basis to verify account activity is reasonable. The EPA’s remaining
    corrective action is to complete a thorough review of all posting models.
  Compass Reporting Limitations Impair Accounting Operations and Internal Controls
    The EPA did not agree that the reporting limitations we identified in FY 2012 in several accounting
    areas significantly impair the effectiveness of the agency’s accounting operations and internal
    controls. However, the EPA stated that it will continue to analyze the agency’s reports, identify any
    concerns and develop new reports for users as needed. In FY 2013, the EPA had not developed
    reports at the security organization level needed to reconcile accounts receivable and update
    allowance for doubtful account estimates and to reconcile property financial data in Compass to the
    property management data in Maximo. The EPA needs to complete corrective action in these areas
    to develop reports to provide users with accurate data on a timely basis.




14-1-0039                                                                                              21
   EPA Should Improve Compliance With Internal Controls for Accounts Receivable
    During FY 2012, we found numerous deficiencies in EPA’s compliance with accounts receivable
    internal controls. Various factors contributed to EPA not properly following its internal control
    procedures to ensure timely and accurate recording of accounts receivable. We found that Cincinnati
    Finance Center did not timely receive accounts receivable judicial legal documents from the
    Department of Justice and EPA. In FY 2013, the agency made progress on the corrective action;
    however, the corrective action is not complete. The agency revised agency accounts receivable
    guidance to remove the requirement for Regional Legal Enforcement Offices to forward copies of
    executed judicial orders to the Cincinnati Finance Center within five workdays. EPA's Office of
    Enforcement and Compliance Assurance is still in the process of working with the Cincinnati Finance
    Center and the Department of Justice to assess the timely transmission of judicial orders to the
    Cincinnati Finance Center. The agency is scheduled to complete this corrective action in FY 2014.
   EPA Is Not Clearing Fund Balance with Treasury Statement of Differences Timely
    During FY 2012, EPA did not clear Fund Balance with Treasury differences reported on the U.S.
    Department of the Treasury’s Statement of Differences within two months. Various problems resulting
    from the agency’s conversion from the Integrated Financial Management System to Compass
    contributed to the untimely clearing of Statement of Differences transactions. In FY 2013 the agency
    improved its process for clearing Statement of Differences transactions with the implementation of
    the Central Accounting Reporting System. The EPA has made progress in clearing Statement of
    Differences transactions in two months. However, the EPA has not fully completed corrective action
    because some differences still remain, especially at the Washington Finance Center.
    Property Internal Controls Need Improvement
    In our FY 2012 audit, we found that Compass did not sufficiently reject personal property information
    entries that were not accurate. As a result, the agency could possibly lose accountability and control
    over property. We identified personal property items for which the location was not properly identified,
    and items were physically located in accountable areas other than the locations identified in the
    property system. During FY 2013, we found that some capital property items valued at approximately
    $1.1 million in Research Triangle Park were not in the exact location as recorded in the Fixed Assets
    System. The EPA transferred the pieces of equipment to a new location, but did not update the
    system.
   Compass and Maximo Cannot Be Reconciled
    During FY 2012, we found that the EPA could not reconcile capital equipment property management
    data within its property management subsystem, Maximo, to relevant financial data within Compass.
    The inability to reconcile the property subsystem with Compass could compromise the effectiveness
    and reliability of financial reporting. The EPA could not reconcile Maximo and Compass because
    historical property data did not migrate properly from the Integrated Financial Management System to
    Compass. We recommended that the EPA develop procedures to reconcile capitalized property in
    the agency’s system with Maximo. According to agency officials, they identified the need to develop
    additional procedures to reconcile capital property. The EPA is currently reviewing the policy and the
    target completion date is December 31, 2013.
   EPA Should Improve Controls Over Expense Accrual Reversals
    In FY 2012, the EPA did not reverse approximately $108 million of FY 2011 year-end expense
    accruals. The agency did not reverse the accrual transactions because the Compass posting
    configuration for the applicable fund category was inaccurate. By not reversing the accruals timely,
    EPA materially overstated the accrued liability and expense amounts in the quarterly financial
    statements. EPA’s Policy Announcement No. 95-11, Policies and Procedures for Recognizing
    Year-End Accounts Payable and Related Accruals, require the agency to “recognize and report all
    accounts payable and related accruals in its year-end financial reports.” In our final audit report
    issued November 16, 2012, we recommended that the agency update the EPA’s Policy
    Announcement 95-11 to require reconciliations of accruals and accrual reversals. Agency officials
    concurred with our finding and recommendations and took corrective action by implementing an
    independent review of the FY 2012 accruals and reversals. The agency also performed accrual
    reviews prior to the issuance of the FY 2013 quarterly financial statements. However, the agency has
    extended the target due date to update Policy Announcement 95-11 until June 2014.




14-1-0039                                                                                               22
    EPA Needs to Remediate System Vulnerabilities That Place Financial Data at Risk
     In our FY 2012 audit, we found that OCFO officials did not monitor the testing of its networked
     information technology assets to identify commonly known vulnerabilities or take action to remediate
     those weaknesses. We found the lack of monitoring, in part, because EPA’s OEI took almost 3 years
     to resolve a long-standing recommendation to define duties and responsibilities for testing networked
     resources managed under EPA’s service support contract. Information technology assets used by
     finance center personnel contained 286 commonly known vulnerabilities that could potentially
     undermine EPA’s financial reporting capability, if exploited. We made several recommendations to
     the agency’s program office senior information official to establish a process to closely monitor the
     contractor to ensure that they test the finance centers’ networked resources and remediate all noted
     vulnerabilities. During FY 2013, we identified four high-risk vulnerabilities that went unresolved within
     the required 30-day timeframe for the OCFO network.
    CFO Financial Systems Security Documentation Needs Improvement
     During FY 2012 financial statement audit, we found that the EPA has inaccurate system security
     plans for the following key financial information systems: Contract Payment System, Fellowship
     Payment System, Grants Payment System and Small Purchase Information Tracking System. During
     FY 2013 financial statement audit, we found that the EPA has integrated these financial information
     systems as modules in the overarching Payment Tracking System. As of September 19, 2013, the
     EPA has an approved system security plans for the Payment Tracking System. The Payment
     Tracking System's system security plans incorporated the assessment and control reviews from the
     Contract Payment System, Fellowship Payment System, Grants Payment System and Small
     Purchase Information Tracking System system security plans. However, the Payment Tracking
     System's system security plans includes reference to an outdated policy under controls AC-5 that
     was found during the FY 2012 financial statement audit and the Contingency Plan provided was not
     finalized.
    Financial Management System User Account Management Needs Improvement
     EPA had previously considered these recommendations closed; however, OCFO agreed in FY 2013,
     to develop alternative corrective action for recommendation 27. OCFO is in the process of developing
     our proposal. Regarding recommendation 32, OCFO has been receiving automated human
     resources data/reports and is working with the Office of Administration and Resources Management
     on the implementation of the Human Resources Line of Business which will further respond to this
     recommendation.”
Source: OIG analysis.




14-1-0039                                                                                                 23
                                                                                                                              Attachment 3

                Status of Current Recommendations and
                      Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                 Planned
 Rec.   Page                                                                                                    Completion   Claimed    Agreed To
 No.     No.                          Subject                         Status1          Action Official             Date      Amount      Amount

  1      11    Perform a thorough review of posting models and          U           Chief Financial Officer
               financial system configurations to ensure the
               proper accounts are impacted.

  2      11    Perform quarterly analytical reviews of account          O           Chief Financial Officer      Ongoing
               activity at the transaction level to verify that the                                              quarterly
               activity is reasonable.                                                                            activity

  3      14    Require the Director, Facilities Management and          O        Assistant Administrator for     1/31/14
               Services Division, to establish timeframes that                   Office of Administration and
               property records are to be entered or updated                      Resources Management
               when a new accountable personal property item is
               received or inventoried, relocated, transferred or
               no longer in the EPA’s custody.

  4      14    Require the Director, Facilities Management and          O        Assistant Administrator for     1/31/14
               Services Division, to determine and resolve the                   Office of Administration and
               issue of missing personal property records not in                  Resources Management
               agency’s official property system.

  5      14    Require the Director, Facilities Management and          O        Assistant Administrator for     Ongoing
               Services Division, to verify capital assets are                   Office of Administration and    quarterly
               updated in Maximo (including new equipment,                        Resources Management            activity
               surplused and no longer in the EPA’s custody).

  6      14    Require the Director, Facilities Management and          O        Assistant Administrator for     1/31/14
               Services Division, to hold a Board of Survey to                   Office of Administration and
               address missing items.                                             Resources Management

  7      15    Require the Director of the Office of Technology         U           Chief Financial Officer
               Solutions to work with the Compass contractor to
               correct the FD01 model posting error.

  8      16    Conduct reviews of the access control lists for all      O         Assistant Administrator for    1/15/14
               agency financial applications under their                        Environmental Information and
               responsibility to ensure they are up-to-date and                     Chief Financial Officer
               reflect the current necessary system privileges of
               personnel.

  9      17    Issue a memorandum to personnel responsible for          O         Assistant Administrator for    1/15/14
               controlling access to financial systems                          Environmental Information and
               emphasizing the importance of following access                       Chief Financial Officer
               control procedures – specifically, periodic access
               reviews and proper access removal.




14-1-0039                                                                                                                                      24
                                                                                                                               POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed To
    No.      No.                        Subject                         Status1          Action Official             Date      Amount      Amount

    10       19    Develop a detailed listing of all OCFO information     O         Assistant Administrator for    4/30/14
                   technology assets by IP address, system name                   Environmental Information and
                   and server name. Provide the OCFO staff in                         Chief Financial Officer
                   charge of receiving and analyzing monthly VM
                   reports with the detailed listing of information
                   technology assets. The detailed listing should
                   include all OCFO information technology assets
                   under OCFO operational control, as well as
                   information technology assets operated on behalf
                   of OCFO within and external to the agency.

    11       19    Issue a memorandum to OCFO staff involved in           O         Assistant Administrator for    4/30/14
                   the monthly VM process reiterating the                         Environmental Information and
                   importance of following roles and responsibilities                 Chief Financial Officer
                   outlined in the VM SOP. Specifically, the
                   memorandum should stress the importance of
                   communicating, to OEI, IP addresses that do not
                   belong to OCFO so they are no longer included in
                   OCFO’s monthly reports. The memorandum
                   should also specify timelines when responsible
                   personnel must update the POA&M information in
                   the agency’s vulnerability tracking system and
                   report the status of actions taken to OCFO’s
                   primary ISO.

    12       19    Conduct training for staff in charge of receiving      U         Assistant Administrator for
                   and analyzing monthly VM reports to ensure they                Environmental Information and
                   are knowledgeable of the agency’s remediation                     Chief Information Officer
                   process for vulnerabilities. This training should
                   included specific information on how to review the
                   provided VM report and what actions offices must
                   take regarding the identified vulnerabilities.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




14-1-0039                                                                                                                                        25
                                                Appendix I

               EPA’s Fiscal 2013 and 2012
            Consolidated Financial Statements




                     SECTION II 

                 FINANCIAL SECTION 





14-1-0039                                                    26
Principal Financial Statements

Financial Statements

   1.   Consolidated Balance Sheet
   2.   Consolidated Statement of Net Cost
   3.   Consolidated Statement of Net Cost by Goal
   4.   Consolidating Statement of Changes in Net Position
   5.   Combined Statement of Budgetary Resources
   6.   Statement of Custodial Activity

Notes to Financial Statements

   Note 1.       Summary of Significant Accounting Policies
   Note 2.       Fund Balance with Treasury (FBWT)
   Note 3.       Cash and Other Monetary Assets
   Note 4.       Investments
   Note 5.       Accounts Receivable, Net
   Note 6.       Other Assets
   Note 7.       Loans Receivable, Net
   Note 8.       Accounts Payable and Accrued Liabilities
   Note 9.       General Property, Plant and Equipment, Net
   Note 10.      Debt Due to Treasury
   Note 11.      Stewardship Land
   Note 12.      Custodial Liability
   Note 13.      Other Liabilities
   Note 14.      Leases
   Note 15.      FECA Actuarial Liabilities
   Note 16.      Cashout Advances, Superfund
   Note 17.      Unexpended Appropriations – Other Funds
   Note 18.      Commitments and Contingencies
   Note 19.      Funds from Dedicated Collections
   Note 20.      Intragovernmental Costs and Exchange Revenue
   Note 21.      Environmental Cleanup Costs
   Note 22.      State Credits
   Note 23.      Preauthorized Mixed Funding Agreements
   Note 24.      Custodial Revenues and Accounts Receivable
   Note 25.      Reconciliation of President’s Budget to Statement of Budgetary Resources




14-1-0039                                                                                   27
Notes to Financial Statements (continued)

   Note 26. Recoveries and Resources Not Available, Statement of Budgetary Resources
   Note 27. Unobligated Balances Available
   Note 28. Undelivered Orders at the End of the Period
   Note 29. Offsetting Receipts
   Note 30. Transfers-In and Out, Statement of Changes in Net Position
   Note 31. Imputed Financing
   Note 32. Payroll and Benefits Payable
      Note 33. Other Adjustments, Statement of Changes in Net Position
      Note 34. Non-exchange Revenue, Statement of Changes in Net Position 

   Note 35. Reconciliation of Net Cost of Operations to Budget 

   Note 36. Amounts Held By Treasury (Unaudited) 

   Note 37. Antideficiency Act Violations 


Required Supplementary Information (Unaudited)

   1. Deferred Maintenance
   2. Stewardship Land
   3. Supplemental Combined Statement of Budgetary Resources

Required Supplementary Stewardship Information (Unaudited)




14-1-0039                                                                              28
                                    Environmental Protection Agency 

                                        Consolidated Balance Sheet 

                           For the Periods Ending September 30, 2013 and 2012 

                                          (Dollars in Thousands) 


                                                                                      FY 2013            FY 2012
AS S ETS
Int ragovernment al:
     Fund Balance Wit h T reasury (Not e 2)                                      $       9,944,179   $     10,856,475
     Invest ment s (Not e 4)                                                             4,577,071          4,620,231
    Account s Receivable, Net (Not e 5)                                                     14,327             28,216
    Ot her (Not e 6)                                                                       243,654            252,837
T ot al Int ragovernment al                                                      $      14,779,231   $     15,757,759

Cash and Ot her M onet ary Asset s (Not e 3)                                                    10                 10
Account s Receivable, Net (Not e 5)                                                        849,173            491,122
Loans Receivable, Net - Non-Federal (Not e 7)                                                   57                136
Prop ert y , Plant & Equip ment , Net (Not e 9)                                          1,030,807          1,010,021
Ot her (Not e 6)                                                                             5,756              3,134
    Total Asse ts                                                                $      16,665,034   $     17,262,182

St ewardship PP& E (Not e 11 )

LIABILITIES
Int ragovernment al:
     Account s Pay able and Accrued Liabilit ies (Not e 8)                                 55,961             55,021
     Debt Due t o T reasury (Not e 10)                                                         28              1,063
     Cust odial Liabilit y (Not e 12)                                                      94,441            118,900
     Ot her (Not e 13)                                                                    102,693            117,520
T ot al Int ragovernment al                                                      $        253,123    $       292,504

Account s Pay able & Accrued Liabilit ies (Not e 8)                              $         619,734   $        775,281
Pensions & Ot her Act uarial Liabilit ies (Not e 15)                                        51,818             46,905
Environment al Cleanup Cost s (Not e 21)                                                    21,549             21,560
Cashout Advances, Sup erfund (Note 16)                                                   1,011,585            735,837
Commit ment s & Cont ingencies (Not e 18)                                                   25,200             25,180
Pay roll & Benefit s Pay able (Not e 32)                                                   267,955            266,727
Ot her (Not e 13)                                                                          125,908            105,068
   T ot al Liabilit ies                                                          $       2,376,872   $      2,269,062


NET PO S ITION
Unexp ended Ap p rop riat ions - Ot her Funds (Not e 17)                                 8,980,012          9,811,870
Cumulat ive Result s of Op erat ions - Funds from Dedicat ed Collections (Not e 19)      4,576,942          4,504,199
Cumulat ive Result s of Op erat ions - Ot her Funds                                        731,208            677,051

T ot al Net Posit ion                                                                   14,288,162         14,993,120

   Total Li abil i ti e s and Ne t Posi ti on                                    $      16,665,034   $     17,262,182

          The accompanying notes are an integral part of these financial statements.



14-1-0039                                                                                                               29
                              Environmental Protection Agency 

                              Consolidated Statement of Net Cost 

                     For the Periods Ending September 30, 2013 and 2012 

                                    (Dollars in Thousands)

                                                 FY 2013                 FY 2012

     COS TS

            Gross Costs (Note 20)         $          10,026,208      $       10,905,272
             Less:
            Earned Revenue (Note 20)                       600,897                 521,826

     NET CO S T OF OPERATIONS (Note 20)   $           9,425,311      $       10,383,446




      The accompanying notes are an integral part of these financial statements.


14-1-0039                                                                                    30
                                            Environmental Protection Agency
                                        Consolidated Statement of Net Cost by Goal
                                        For the Period Ending September 30, 2013
                                                  (Dollars in Thousands)




                                                                                         Land             Healthy          Compliance &
                                                                  Clean & S afe     Pres ervation &   Communities &        Environmental
                                            Clean Air                Water           Res toration       Ecos ys tems        Stewards hip
Costs:
 In trag o vern men tal                 $        166,921      $           405,439   $       341,138   $       163,742      $      194,386
 W ith th e Pu b lic                             903,413                4,723,286         1,902,661           538,325             686,897
   To tal Co s ts (No te 20)                   1,070,334                5,128,725         2,243,799           702,067             881,283

Less:
Earn ed Revenue, Federal                           21,275                   7,733            67,803            12,732               3,489
Earn ed Revenue, non Fed eral                       1,444                  29,976           237,781            31,837             186,827
  To tal Earn ed Rev enu e (No te 20)              22,719                  37,709           305,584            44,569             190,316

NET COS T OF
OPERATIONS (Note 20)                    $     1,047,615       $        5,091,016    $    1,938,215    $      6 5 7,4 9 8   $     6 9 0 ,9 6 7




                                        Cons olidated
                                          Totals
Costs:
 In trag o vern men tal                 $     1,271,626
 W ith th e Pu b lic                    $     8,754,582
    To tal Co sts (No t e 20)               1 0,0 2 6 ,20 8

Less:
Earn ed Revenue, Federal                $       113,032
Earn ed Revenue, non Fed eral           $       487,865
  To tal Earn ed Rev enu e (No te 20)           600,897

NET COS T OF
OPERATIONS (Note 20)                    $     9,425,311




                       The accompanying notes are an integral part of these financial statements.


           14-1-0039                                                                                                           31
                                             Environmental Protection Agency
                                         Consolidated Statement of Net Cost by Goal
                                         For the Period Ending September 30, 2012
                                                   (Dollars in Thousands)


                                                                                          Land             Healthy          Compliance &
                                                                   Clean & S afe     Pres ervation &   Communities &        Environmental
                                             Clean Air                Water           Res toration       Ecos ys tems        Stewards hip
Costs:
 In trag o vern men tal                  $        184,695      $           380,760   $       358,603   $       184,459      $      216,865

 W ith th e Pu b lic                            1,027,551                5,177,804         2,175,713           593,659             605,163

   To tal Co s ts (No te 20)                    1,212,246                5,558,564         2,534,316           778,118             822,028


Less:
Earn ed Revenue, Federal                            12,171                   8,220            79,371            12,092                5,877
Earn ed Revenue, non Fed eral                        1,372                  33,654           255,421            37,106               76,542
   To tal Earn ed Rev enu e (No te 20)              13,543                  41,874           334,792            49,198               82,419

NET COS T OF
OPERATIONS (Note 20)                     $     1,198,703       $        5,516,690    $    2,199,524    $      7 2 8,9 2 0   $     7 3 9 ,6 0 9




                                         Cons olidated
                                           Totals
Costs:
 In trag o vern men tal                  $     1,325,382
 W ith th e Pu b lic                     $     9,579,890
    To tal Co sts (No t e 20)                1 0,9 0 5 ,27 2

Less:
Earn ed Revenue, Federal                 $       117,731
Earn ed Revenue, non Fed eral            $       404,095
  To tal Earn ed Rev enu e (No te 20)            521,826

NET COS T OF
OPERATIONS (Note 20)                     $ 1 0,3 8 3 ,44 6




                       The accompanying notes are an integral part of these financial statements.


           14-1-0039                                                                                                            32
                                    Environmental Protection Agency 

                            Consolidating Statement of Changes in Net Position

                           For the Periods Ending September 30, 2013 and 2012 

                                          (Dollars in Thousands)
                                                                        FY 2013
                                                                      Funds from           FY 2013             FY 2013
                                                                       De di cate d       Al l O the r       Consolidate d
                                                                      Collecti ons          Funds               Total
Cumulati ve Re sults of Operations:

Ne t Posi ti on - Be gi nni ng of Period                                4,504,199             677,051            5,181,250
     Beginning Balances, as Adjust ed                             $     4,504,199     $       677,051    $       5,181,250

Budge tary Fi nanci ng S ource s:
       Ap p rop riat ions Used                                                  -           9,160,169            9,160,169
       Nonexchange Revenue - Securit ies Invest ment (Not e 34)            28,717                   -               28,717
       Nonexchange Revenue - Ot her (Not e 34)                            195,107                   -              195,107
       T ransfers In/Out (Not e 30)                                       (12,594)             29,885               17,291
       T rust Fund Ap p rop riat ions                                   1,087,088          (1,087,088)                   -
   T ot al Budget ary Financing Sources                           $     1,298,318 $         8,102,966 $          9,401,284

O the r Fi nanci ng S ource s (Non-Exchange )
        Imp uted Financing Sources (Note 31)                                25,151            125,776              150,927
    T ot al Ot her Financing Sources                              $         25,151    $       125,776    $         150,927

    Net Cost of Op erat ions                                           (1,250,726)         (8,174,585)          (9,425,311)

    Net Change                                                              72,743             54,157              126,900

Cumulati ve Re sults of Operations                                $     4,576,942     $       731,208    $       5,308,150



Unexpe nded Appropri ations:

Ne t Posi ti on - Be gi nni ng of Period                                          -         9,811,870            9,811,870
     Beginning Balances, as Adjust ed                                             -         9,811,870            9,811,870

Budge tary Fi nanci ng S ource s:
       Ap p rop riat ions Received                                                -         8,782,272            8,782,272
       Ot her Adjust ment s (Not e 33)                                            -          (453,961)            (453,961)
       Ap p rop riations Used                                                     -        (9,160,169)          (9,160,169)
   T ot al Budget ary Financing Sources                                           -          (831,858)            (831,858)

    Total Une xpe nde d Appropri ati ons                                          -         8,980,012            8,980,012

TO TAL NET PO S ITIO N                                            $     4,576,942 $         9,711,220 $         14,288,162

         The accompanying notes are an integral part of these financial statements.




14-1-0039                                                                                                                     33
                                    Environmental Protection Agency 

                            Consolidating Statement of Changes in Net Position

                           For the Periods Ending September 30, 2013 and 2012 

                                          (Dollars in Thousands) 

                                                                        FY 2012
                                                                      Funds from           FY 2012             FY 2012
                                                                       De di cate d       Al l O the r       Consolidate d
                                                                      Collecti ons          Funds               Total
Cumulati ve Re sults of Operations:

Ne t Posi ti on - Be gi nni ng of Period                                7,027,163             654,306            7,681,469
     Beginning Balances, as Adjust ed                             $     7,027,163     $       654,306    $       7,681,469

Budge tary Fi nanci ng S ource s:
       Ap p rop riat ions Used                                                  -           9,814,392            9,814,392
       Nonexchange Revenue - Securit ies Invest ment (Not e 34)            87,454                   -               87,454
       Nonexchange Revenue - Ot her (Not e 34)                            200,069                   -              200,069
       T ransfers In/Out (Not e 30)                                    (2,418,773)             32,018           (2,386,755)
       T rust Fund Ap p rop riat ions                                   1,075,367          (1,075,367)                   -
   T ot al Budget ary Financing Sources                           $    (1,055,883) $        8,771,043 $          7,715,160

O the r Fi nanci ng S ource s (Non-Exchange )
        Donat ions and Forfeit ures of Prop ert y                                -                  -                    -
        T ransfers In/Out (Not e 30)                                             -                  -                    -
        Imp uted Financing Sources (Note 31)                                26,337            141,806              168,143
        Ot her Financing Sources                                               (76)                 -                  (76)
    T ot al Ot her Financing Sources                              $         26,261 $          141,806    $         168,067

    Net Cost of Op erat ions                                           (1,493,342)         (8,890,104)         (10,383,446)

    Net Change                                                         (2,522,964)             22,745           (2,500,219)

Cumulati ve Re sults of Operations                                $     4,504,199     $       677,051    $       5,181,250



Unexpe nded Appropri ations:

Ne t Posi ti on - Be gi nni ng of Period                                          -       11,462,598            11,462,598
     Beginning Balances, as Adjust ed                             $               - $     11,462,598 $          11,462,598

Budge tary Fi nanci ng S ource s:
       Ap p rop riat ions Received                                                -         8,251,902            8,251,902
       Ap p rop riations Transferred In/Out (Note 30)                             -                 5                    5
       Ot her Adjust ment s (Not e 33)                                                        (88,243)             (88,243)
       Ap p rop riations Used                                                     -        (9,814,392)          (9,814,392)
   T ot al Budget ary Financing Sources                                           -        (1,650,728)          (1,650,728)

    Total Une xpe nde d Appropri ati ons                                          -         9,811,870            9,811,870

TO TAL NET PO S ITIO N                                            $     4,504,199 $       10,488,921 $          14,993,120

         The accompanying notes are an integral part of these financial statements.


14-1-0039                                                                                                                     34
                                     Environmental Protection Agency 

                               Combined Statement of Budgetary Resources

                            For the Periods Ending September 30, 2013 and 2012 

                                           (Dollars in Thousands)
                                                                                                  FY 2013             FY 2012
 BUDGETARY RES OURCES
 Unobligated Balance, Brought Forward, October 1:                                             $      2,786,404    $      3,497,850
       Unobligated balance brought forward, October 1, as adjusted                                   2,786,404           3,497,850
 Recoveries of Prior Year Unpaid Obligations (Note 26)                                                286,170             571,576
 Other changes in unobligated balance                                                                  (25,506)            (31,639)
 Unobligated balance from prior year budget authority, net                                           3,047,068           4,037,787
 Appropriations (discretionary and mandatory)                                                        9,585,239          11,948,399
 Spending authority from offsetting collections (discretionary and mandatory)                         664,260             583,051
 Total Budgetary Res ources (Note 25)                                                         $     13,296,567    $     16,569,237

 S TATUS OF BUDGETARY RES OURCES
 Obligations incurred (Note 25)                                                               $     10,090,120    $     13,782,833
 Unobligated balance, end of year:
    Apportioned (Note 27)                                                                            3,008,632           2,609,127
    Unapportioned                                                                                     197,815             177,277
 Total unobligated balance, end of period                                                            3,206,447           2,786,404
 Total S tatus of Budgetary Res ources                                                        $     13,296,567    $     16,569,237

 CHANGE IN OBLIGATED BALANCE
 Unpaid Obligations :
 Unpaid Obligations, Brought Forward, October 1 (gross)                                       $     11,311,842    $     12,774,894
 Obligations incurred                                                                               10,090,120          13,782,833
 Outlays (gross)                                                                                   (11,331,761)        (14,674,309)
 Recoveries of prior year unpaid obligations                                                          (286,170)           (571,576)
 Unpaid obligations, end of year (gross)                                                      $      9,784,031    $     11,311,842

 Uncollected Payments :
 Uncollected customer payments from Federal Sources, brought forward, October 1               $       (305,514)   $       (438,428)
 Change in uncollected customer payments from Federal sources                                            9,338            132,914
 Uncollected customer payments from Federal sources, end of year                              $       (296,176)   $       (305,514)

 Memorandum entries:
 Obligated balance, start of year                                                             $     11,006,328    $     12,336,466
 Obligated balance, end of year (net)                                                         $      9,487,856    $     11,006,328

 BUDGET AUTHORITY AND OUTLAYS , NET:
 Budget authority, gross (discretionary and mandatory)                                        $     10,249,499    $     12,531,450
 Actual offsetting collections (discretionary and mandatory)                                          (673,598)           (715,965)
 Change in uncollected customer payments from Federal sources (discretionary and mandatory)              9,338            (132,914)
 Budget authority, net (discretionary and mandatory)                                          $      9,585,239    $     11,682,571


 Outlays, gross (discretionary and mandatory) (Note 25)                                       $     11,331,761    $     14,674,309
 Actual offsetting collections (discretionary and mandatory) (Note 25)                                (673,598)           (715,965)
 Outlays, net (discretionary and mandatory)                                                         10,658,163          13,958,344
 Distributed offsetting receipts (Notes 25 and 29)                                                  (1,173,784)         (1,163,736)
 Agency outlays, net (discretionary and mandatory)                                            $      9,484,379    $     12,794,608



          The accompanying notes are an integral part of these financial statements.



14-1-0039                                                                                                                             35
                              Environmental Protection Agency
                               Statement of Custodial Activity
                     For the Periods Ending September 30, 2013 and 2012
                                    (Dollars in Thousands)

                                                              FY 2013            FY 2012

   Revenue Activity:
   Sources of Cash Collections:
      Fines and Penalties                                 $       150,444    $      172,938
      Other                                                        17,346           (51,707)
      Total Cash Collections                              $       167,790    $      121,231
      Accrual Adjustment                                          (20,167)           62,980
   Total Custodial Revenue (Note 24)                      $       147,623    $      184,211

   Dis pos ition of Collections :
       Transferred to Others (General Fund)               $       167,790    $      121,234
       Increases/Decreases in Amounts to be Transferred           (20,167)           62,977
   Total Disposition of Collections                       $       147,623    $      184,211

   Net Cus todial Revenue Activity (Note 24 )             $             -    $             -




       The accompanying notes are an integral part of these financial statements.



14-1-0039                                                                                      36
                            Environmental Protection Agency 

                             Notes to the Financial Statements

                     Fiscal Year Ended September 30, 2013 and 2012 

                                  (Dollars in Thousands) 



Note 1. Summary of Significant Accounting Policies

A. Reporting Entities

The EPA was created in 1970 by executive reorganization from various components of other
federal agencies to better marshal and coordinate federal pollution control efforts. The
agency is generally organized around the media and substances it regulates - air, water,
hazardous waste, pesticides, and toxic substances.

The FY 2013 financial statements are presented on a consolidated basis for the Balance
Sheet, Statements of Net Cost, Changes in Net Position and Custodial Activity and a
combined basis for the Statement of Budgetary Resources. These financial statements
include the accounts of all funds described in this note by their respective Treasury fund
group.

B. Basis of Presentation

These accompanying financial statements have been prepared to report the financial position
and results of operations of the U. S. Environmental Protection Agency (EPA or agency) as
required by the Chief Financial Officers Act of 1990 and the Government Management
Reform Act of 1994. The reports have been prepared from the financial system and records
of the Agency in accordance with Office of Management and Budget (OMB) Circular No. A-
136, Financial Reporting Requirements, and the EPA accounting policies, which are
summarized in this note. The Statement of Net Cost has been prepared with cost segregated
by the agency’s strategic goals.

C. Budgets and Budgetary Accounting


   1. General Funds

       Congress adopts an annual appropriation for State and Tribal Assistance Grants
       (STAG), Buildings and Facilities (B&F), and for Payments to the Hazardous
       Substance Superfund to be available until expended, as well as annual appropriations
       for Science and Technology (S&T), Environmental Programs and Management
       (EPM) and for the Office of Inspector General (OIG) to be available for two fiscal
       years. When the appropriations for the General Funds are enacted, Treasury issues a



14-1-0039                                                                                     37
       warrant to the respective appropriations. As the agency disburses obligated amounts,
       the balance of funds available to the appropriation is reduced at Treasury.

       The Asbestos Loan Program is a commercial activity financed from a combination of
       two sources, one for the long term costs of the loans and another for the remaining
       non-subsidized portion of the loans. Congress adopted a one year appropriation,
       available for obligation in the fiscal year for which it was appropriated, to cover the
       estimated long term cost of the Asbestos loans. The long term costs are defined as the
       net present value of the estimated cash flows associated with the loans. The portion of
       each loan disbursement that did not represent long term cost is financed under
       permanent indefinite borrowing authority established with the Treasury. A permanent
       indefinite appropriation is available to finance the costs of subsidy re-estimates that
       occur in subsequent years after the loans were disbursed.

       Funds transferred from other federal agencies are processed as non-expenditure
       transfers. As the Agency disburses the obligated amounts, the balance of funding
       available to the appropriation is reduced at Treasury.

       Clearing accounts and receipt accounts receive no appropriated funds. Amounts are
       recorded to the clearing accounts pending further disposition. Amounts recorded to
       the receipt accounts capture amounts collected for or payable to the Treasury General
       Fund.

   2. Revolving Funds

       Funding of the Reregistration and Expedited Processing Fund (FIFRA) and Pesticide
       Registration Funds (PRIA) is provided by fees collected from industry to offset costs
       incurred by the agency in carrying out these programs. Each year the agency submits
       an apportionment request to OMB based on the anticipated collections of industry
       fees.

       Funding of the Working Capital Fund (WCF) is provided by fees collected from other
       Agency appropriations and other federal agencies to offset costs incurred for
       providing the agency administrative support for computer and telecommunication
       services, financial system services, employee relocation services, background
       investigations, conference planning and postage.

       In FY 2013, EPA received an advance of $1.053 million from BP PLC (BP) to fund
       the National Resource Damage and Assessment Fund (NRDA) to participate in
       addressing injured natural resources and service resulting from the Deepwater
       Horizon Oil Spill.




14-1-0039                                                                                        38
   3. Special Funds

       The Environmental Services Receipt Account obtains fees associated with
       environmental programs.

       Exxon Valdez uses funding collected from reimbursement from the Exxon Valdez
       settlement.

   4. Deposit Funds

       Deposit accounts receive no appropriated funds. Amounts are recorded to the deposit
       accounts pending further disposition. These are not EPA’s funds.

   5. Trust Funds

       Congress adopts an annual appropriation amount for the Superfund, Leaking
       Underground Storage Tank (LUST) and the Oil Spill Response Accounts to remain
       available until expended. A transfer account for the Superfund and LUST Trust Fund
       has been established for purposes of carrying out the program activities. As the
       agency disburses obligated amounts from the transfer account, the agency draws
       down monies from the Superfund and LUST Trust Fund at Treasury to cover the
       amounts being disbursed. The agency draws down all the appropriated monies from
       the Principal Fund of the Oil Spill Liability Trust Fund when Congress adopts the
       Inland Oil Spill Programs appropriation amount to the EPA’s Oil Spill Response
       Account.

       The Office of General Counsel determined that the EPA did not have statutory
       authority to retain and use states voluntary cost share payments for Superfund
       removal actions and subsequently did not comply with the Miscellaneous Receipts
       Act and the EPA’s Hazardous Substance Superfund appropriation was improperly
       augmented. As a result of this decision, the EPA transferred $9.3 million from the
       Superfund appropriation to Treasury’s miscellaneous receipts.

D. Basis of Accounting

   Generally Accepted Accounting Principles (GAAP) for Federal entities is the standard
   prescribed by the Federal Accounting Standards Advisory Board (FASAB), which is the
   official standard-setting body for the Federal government. The financial statements are
   prepared in accordance with GAAP for Federal entities.

   Transactions are recorded on an accrual accounting basis and on a budgetary basis (where
   budgets are issued). Under the accrual method, revenues are recognized when earned and
   expenses are recognized when a liability is incurred, without regard to receipt or payment




14-1-0039                                                                                       39
   of cash. Budgetary accounting facilitates compliance with legal constraints and controls
   over the use of federal funds.

E. Revenues and Other Financing Sources

   The following EPA policies and procedures to account for inflow of revenue and other
   financing sources are in accordance with Statement of Federal Financial Accounting
   Standards (SFFAS) No. 7, “Accounting for Revenues and Other Financing Sources.”
   The Superfund program receives most of its funding through appropriations that may be
   used within specific statutory limits for operating and capital expenditures (primarily
   equipment). Additional financing for the Superfund program is obtained through:
   reimbursements from other federal agencies, state cost share payments under Superfund
   State Contracts (SSCs), and settlement proceeds from Potentially Responsible Parties
   (PRPs) under CERCLA Section 122(b)(3) placed in special accounts. Cost recovery
   settlements that are not placed in special accounts continue to be deposited in the Trust
   Fund.

   Most of the other funds receive funding needed to support programs through
   appropriations which may be used within statutory limits for operating and capital
   expenditures. However, under Credit Reform provisions, the Asbestos Loan Program
   receives funding to support the subsidy cost of loans through appropriations which may
   be used within statutory limits. The Asbestos Direct Loan Financing fund 4322, an off-
   budget fund, receives additional funding to support the outstanding loans through
   collections from the Program fund 0118 for the subsidized portion of the loan.

   The FIFRA and PRIA funds receive funding through fees collected for services provided
   and interest on invested funds. The WCF receives revenue through fees collected for
   services provided to the agency program offices. Such revenue is eliminated with related
   Agency program expenses upon consolidation of the agency’s financial statements. The
   Exxon Valdez Settlement Fund receives funding through reimbursements.

   Appropriated funds are recognized as Other Financing Sources expended when goods
   and services have been rendered without regard to payment of cash. Other revenues are
   recognized when earned (i.e., when services have been rendered).

F. Funds with the Treasury

   The agency does not maintain cash in commercial bank accounts. Cash receipts and
   disbursements are handled by Treasury. The major funds maintained with Treasury are
   Appropriated Funds, Revolving Funds, Trust Funds, Special Funds, Deposit Funds, and
   Clearing Accounts. These funds have balances available to pay current liabilities and
   finance authorized obligations, as applicable.




14-1-0039                                                                                      40
G. Investments in U.S. Government Securities

   Investments in U.S. Government securities are maintained by Treasury and are reported
   at amortized cost net of unamortized discounts. Discounts are amortized over the term of
   the investments and reported as interest income. No provision is made for unrealized
   gains or losses on these securities because, in the majority of cases, they are held to
   maturity (see Note 4).

H. Notes Receivable

   The Agency records notes receivable at their face value and any accrued interest as of the
   date of receipt.

I. Marketable Securities

   The agency records marketable securities at cost as of the date of receipt. Marketable
   securities are held by Treasury and reported at their cost value in the financial statements
   until sold (see Note 4).

J. Accounts Receivable and Interest Receivable

   The majority of receivables for non-Superfund funds represent penalties and interest
   receivable for general fund receipt accounts, unbilled intragovernmental reimbursements
   receivable, allocations receivable from Superfund (eliminated in consolidated totals), and
   refunds receivable for the STAG appropriation.

   Superfund accounts receivable represent recovery of costs from PRPs as provided under
   CERCLA as amended by SARA. Since there is no assurance that these funds will be
   recovered, cost recovery expenditures are expensed when incurred (see Note 5).

   The agency records accounts receivable from PRPs for Superfund site response costs
   when a consent decree, judgment, administrative order, or settlement is entered. These
   agreements are generally negotiated after at least some, but not necessarily all, of the site
   response costs have been incurred. It is the agency's position that until a consent decree
   or other form of settlement is obtained, the amount recoverable should not be recorded.

   The agency also records accounts receivable from states for a percentage of Superfund
   site remedial action costs incurred by the agency within those states. As agreed to under
   SSCs, cost sharing arrangements may vary according to whether a site was privately or
   publicly operated at the time of hazardous substance disposal and whether the Agency
   response action was removal or remedial. SSC agreements are usually for 10 percent or
   50 percent of site remedial action costs, depending on who has the lead for the site (i.e.,
   publicly or privately owned). States may pay the full amount of their share in advance or
   incrementally throughout the remedial action process.



14-1-0039                                                                                          41
K. Advances and Prepayments

   Advances and prepayments represent funds advanced or prepaid to other entities both
   internal and external to the agency for which a budgetary expenditure has not yet
   occurred.

L. Loans Receivable

   Loans are accounted for as receivables after funds have been disbursed. Loans receivable
   resulting from obligations on or before September 30, 1991, are reduced by the allowance
   for uncollectible loans. Loans receivable resulting from loans obligated on or after
   October 1, 1991, are reduced by an allowance equal to the present value of the subsidy
   costs associated with these loans. The subsidy cost is calculated based on the interest rate
   differential between the loans and Treasury borrowing, the estimated delinquencies and
   defaults net of recoveries offset by fees collected and other estimated cash flows
   associated with these loans.

M. Appropriated Amounts Held by Treasury

   For the Superfund and LUST Trust Funds and for amounts appropriated from the
   Superfund Trust Fund to the OIG, cash available to the agency that is not needed
   immediately for current disbursements remains in the respective Trust Funds managed by
   Treasury.

N. Property, Plant, and Equipment

   EPA accounts for its personal and real property accounting records in accordance with
   SFFAS No. 6, “Accounting for Property, Plant and Equipment.” For EPA-held property,
   the Fixed Assets Subsystem (FAS) automatically generates depreciation entries monthly
   based on in-service dates.

   A purchase of EPA-held or contract personal property is capitalized if it is valued at $25
   thousand or more and has an estimated useful life of at least two years. For contractor
   held property, depreciation is taken on a modified straight-line basis over a period of six
   years depreciating 10 percent the first and sixth year, and 20 percent in years two through
   five. Detailed records are maintained and accounted for in contractor systems, not in
   FAS for contractor held property. Acquisitions of EPA-held personal property are
   depreciated using the straight-line method over the specific asset’s useful life, ranging
   from two to fifteen years.

   Personal property also consists of capital leases. To be defined as a capital lease, it must,
   at its inception, have a lease term of two or more years and the lower of the fair value or
   present value of the minimum lease payments must be $75 thousand or more. Capital
   leases may also contain real property (therefore considered in the real property category
   as well), but these need to meet an $85 thousand capitalization threshold. In addition, the


14-1-0039                                                                                          42
   lease must meet one of the following criteria: transfers ownership to the EPA; contains a
   bargain purchase option; the lease term is equal to 75 percent or more of the estimated
   economic service life; or the present value of the lease and other minimum lease
   payments equal or exceed 90 percent of the fair value.

   Superfund contract property used as part of the remedy for site-specific response actions
   is capitalized in accordance with the agency’s capitalization threshold. This property is
   part of the remedy at the site and eventually becomes part of the site itself. Once the
   response action has been completed and the remedy implemented, the EPA retains
   control of the property (i.e., pump and treat facility) for 10 years or less, and transfers its
   interest in the facility to the respective state for mandatory operation and maintenance –
   usually 20 years or more. Consistent with the EPA’s 10 year retention period,
   depreciation for this property is based on a 10 year life. However, if any property is
   transferred to a state in a year or less, this property is charged to expense. If any property
   is sold prior to EPA relinquishing interest, the proceeds from the sale of that property
   shall be applied against contract payments or refunded as required by the Federal
   Acquisition Regulations.

   An exception to the accounting of contract property includes equipment purchased by the
   WCF. This property is retained in FAS and depreciated utilizing the straight-line method
   based upon the asset’s in-service date and useful life.

   Real property consists of land, buildings, capital and leasehold improvements and capital
   leases. Real property, other than land, is capitalized when the value is $85 thousand or
   more. Land is capitalized regardless of cost. Buildings are valued at an estimated original
   cost basis, and land is valued at fair market value if purchased prior to FY 1997. Real
   property purchased after FY 1996 is valued at actual cost. Depreciation for real property
   is calculated using the straight-line method over the specific asset’s useful life, ranging
   from 10 to 102 years. Leasehold improvements are amortized over the lesser of their
   useful life or the unexpired lease term. Additions to property and improvements not
   meeting the capitalization criteria, expenditures for minor alterations, and repairs and
   maintenance are expensed when incurred.

   Software for the WCF, a revenue generating activity, is capitalized if the purchase price
   is $100 thousand or more with an estimated useful life of two years or more. All other
   funds capitalize software if those investments are considered Capital Planning and
   Investment Control (CPIC) or CPIC Lite systems with the provisions of SFFAS No. 10,
   “Accounting for Internal Use Software.” Once software enters the production life cycle
   phase, it is depreciated using the straight-line method over the specific asset’s useful life
   ranging from two to ten years.




14-1-0039                                                                                            43
O. Liabilities

   Liabilities represent the amount of monies or other resources that are more likely than not
   to be paid by the agency as the result of an agency transaction or event that has already
   occurred and can be reasonably estimated. However, no liability can be paid by the
   agency without an appropriation or other collections. Liabilities for which an
   appropriation has not been enacted are classified as unfunded liabilities and there is no
   certainty that the appropriations will be enacted. Liabilities of the agency arising from
   other than contracts can be abrogated by the Government acting in its sovereign capacity.

P. Borrowing Payable to the Treasury

   Borrowing payable to Treasury results from loans from Treasury to fund the Asbestos
   direct loans. Periodic principal payments are made to Treasury based on the collections of
   loans receivable.

Q. Interest Payable to Treasury

   The Asbestos Loan Program makes periodic interest payments to Treasury based on its
   debt.

R. Accrued Unfunded Annual Leave

   Annual, sick and other leave is expensed as taken during the fiscal year. Sick leave
   earned but not taken is not accrued as a liability. Annual leave earned but not taken as of
   the end of the fiscal year is accrued as an unfunded liability. Accrued unfunded annual
   leave is included in Note 32 as a component of “Payroll and Benefits Payable.”

S. Retirement Plan

   There are two primary retirement systems for federal employees. Employees hired prior
   to January 1, 1987, may participate in the Civil Service Retirement System (CSRS). On
   January 1, 1984, the Federal Employees Retirement System (FERS) went into effect
   pursuant to Public Law 99-335. Most employees hired after December 31, 1983, are
   automatically covered by FERS and Social Security. Employees hired prior to January 1,
   1984, elected to either join FERS and Social Security or remain in CSRS. A primary
   feature of FERS is that it offers a savings plan to which the Agency automatically
   contributes one percent of pay and matches any employee contributions up to an
   additional four percent of pay. The Agency also contributes the employer’s matching
   share for Social Security.

   With the issuance of SFFAS No. 5, "Accounting for Liabilities of the Federal
   Government," accounting and reporting standards were established for liabilities relating
   to the federal employee benefit programs (Retirement, Health Benefits, and Life
   Insurance). SFFAS No. 5 requires that the employing agencies recognize the cost of


14-1-0039                                                                                        44
   pensions and other retirement benefits during their employees’ active years of service.
   SFFAS No. 5 requires that the Office of Personnel Management (OPM), as administrator
   of the CSRS and FERS, the Federal Employees Health Benefits Program, and the Federal
   Employees Group Life Insurance Program, provide federal agencies with the actuarial
   cost factors to compute the liability for each program.

T. 	Prior Period Adjustments and Restatements

   Prior period adjustments, if any, are made in accordance with SFFAS No. 21, “Reporting
   Corrections of Errors and Changes in Accounting Principles.” Specifically, prior period
   adjustments will only be made for material prior period errors to: (1) the current period
   financial statements, and (2) the prior period financial statements presented for
   comparison. Adjustments related to changes in accounting principles will only be made
   to the current period financial statements, but not to prior period financial statements
   presented for comparison.

U. 	Recovery Act Funds

   On February 17, 2009, President Obama signed the American Recovery and
   Reinvestment Act of 2009 (Recovery Act). The Act was enacted to create jobs in the
   United States, encourage technical advances, assist in modernizing the nation's
   infrastructure, and enhance energy independence. The EPA was charged with the task of
   distributing funds to invest in various projects aimed at creating advances in science,
   health, and environmental protection that will provide long-term economic benefits.

   The EPA manages almost $7.22 billion in Recovery Act funded projects and programs
   that will help achieve these goals, offer resources to help other “green” agencies, and
   administer environmental laws that will govern Recovery activities. As of September 30,
   2013, EPA has paid out $7.1 billion.

   The EPA, in collaboration with states, tribes, local governments, territories and other
   partners, is administering the funds it received under the Recovery Act through four
   appropriations. The funds include:

       	 State and Tribal Assistance Grants (STAG) that in turn include:

              o	 $4 billion for assistance to help communities with water quality and
                 wastewater infrastructure needs and $2 billion for drinking water
                 infrastructure needs (Clean Water and Drinking Water State Revolving
                 Fund programs and Water Quality Planning program);




14-1-0039                                                                                      45
              o	 $100 million for competitive grants to evaluate and clean up former
                 industrial and commercial sites (Brownfields program);

              o	 $300 million for grants and loans to help regional, state and local
                 governments, tribal agencies, and non-profit organizations with projects
                 that reduce diesel emissions (Clean Diesel programs);

       	 $600 million for the cleanup of hazardous sites (Superfund program);

       	 $200 million for cleanup of petroleum leaks from underground storage tanks
          (Leaking Underground Storage Tank program); and

       	 $20 million for audits and investigations conducted by the Inspector General (IG).

   The vast majority of the contracts awarded under the Recovery Act have used
   competitive contracts. The EPA is committed fully to ensuring transparency and
   accountability throughout the agency in spending Recovery Act funds in accordance with
   OMB guidance.

   EPA set up a Stimulus Steering Committee that meets to review and report on the status
   of the distribution of the Recovery Act Funds to ensure transparency and accuracy. EPA
   also developed a Stewardship Plan which is an Agency-level risk mitigation plan that sets
   out the Agency's Recovery Act risk assessment, internal controls and monitoring
   activities. The Stewardship Plan is divided into seven functional areas: grants,
   interagency agreements, contracts, human capital/payroll, budget execution, performance
   reporting and financial reporting. The Stewardship Plan was developed around
   Government Accountability Office (GAO) standards for internal control. Under each
   functional area, risks are assessed and related control, communication and monitoring
   activities are identified for each impacted program. The Plan is a dynamic document and
   will be updated as revised OMB guidance is issued or additional risks are uncovered.

   EPA has the three-year EPM treasury symbol 6809/110108 that was established to track
   the appropriate operation and maintenance of the funds. EPA’s other Recovery Act
   programs are the following: Office of Inspector General (IG), treasury symbol
   6809/120113; State and Tribal Assistance Grants, treasury symbol 6809/100102;
   Payment to the Superfund, treasury symbol 6809/100249; Superfund, treasury symbol
   6809/108195; and Leaking Underground Storage Tank, treasury symbol 6809/108196.

V. Deepwater Horizon Oil Spill

   On April 20, 2010 the Deepwater Horizon drilling rig exploded, releasing large volumes
   of oil into the Gulf of Mexico. As a responsible party, BP is required by the 1990 Oil
   Pollution Act to fund the cost of the response and cleanup operations. In FY 2011, the
   EPA worked on the cleanup effort in conjunction with the U.S. Coast Guard who was


14-1-0039                                                                                      46
   named the lead Federal On-Scene Coordinator and continues to assist the Department of
   Justice on the pending civil litigation.

   On September 10, 2012, the President designated EPA and USDA as additional trustees
   for the National Resource Damage and Assessment Council for restoration solely in
   conjunction with injury to, destruction of, loss of, or loss of the use of natural resources,
   including their supporting ecosystems, resulting from the Deepwater Horizon Oil Spill. In
   FY 2013, EPA received an advance of $1.053 million from BP, to participate in
   addressing injured natural resources and service resulting from the Deepwater Horizon
   Oil Spill.

W. Hurricane Sandy

   On January 29, 2013, President Obama signed into law the Disaster Relief
   Appropriations Act (Disaster Relief Act) which provides aid for Hurricane Sandy disaster
   victims and their communities. Because relief funding of this magnitude often carries
   additional risk, agencies must ensure that the funds appropriated under the Act are used
   for their intended purposes. The Disaster Relief Act required Federal agencies supporting
   Sandy recovery and other disaster-related activities to implement internal controls to
   prevent waste, fraud and abuse of these funds. EPA implemented an internal control plan.
   The EPA Hurricane Sandy Internal Control Plan was submitted to OMB, GAO and the
   IG during March 2013.

   EPA received a post sequestration appropriation of $577 million in Hurricane Sandy
   funds. As of the end of FY 2013, $433,005 in Hurricane Sandy funds have been
   expended. These funds are for the following programs (all amounts are post
   sequestration):

       	 The Clean Water State Revolving Fund received $475 million for work on clean
          water infrastructure projects.

       	 The Drinking Water State Revolving Fund received $95 million for work on
          drinking water infrastructure projects.

       	 The Leaking Underground Storage Tanks program received $4.75 million for
          work on projects impacted by Hurricane Sandy.

       	 The Superfund program received $1.9 million for work on Superfund sites
          impacted by Hurricane Sandy.

       	 EPA also received $689,000 to make repairs to EPA facilities impacted by
          Hurricane Sandy and conduct additional water quality monitoring.




14-1-0039                                                                                          47
X. Use of Estimates

    The preparation of financial statements requires management to make certain estimates
    and assumptions that affect the reported amounts of assets and liabilities and the reported
    amounts of revenue and expenses during the reporting period. Actual results could differ
    from those estimates.

Note 2. Fund Balance with Treasury (FBWT)

Fund Balance with Treasury as of September 30, 2013 and 2012, consists of the following:

                                           FY 2013                                    FY 2012
                                Entity    Non-Entity                       Entity    Non-Entity
                               Assets        Assets          Total        Assets        Assets         Total
Trust Funds:
 Su p erfu nd           $      40,254 $            - $      40,254 $      95,604 $           - $      95,604
 LUST                          38,368              -        38,368        35,310             -        35,310
 Oil Sp ill                     5,082              -         5,082         4,682             -         4,682
Revolving Funds:
 FIFRA / To leran ce            11,820            -          11,820         4,808            -          4,808
 W o rkin g Cap ital            66,663            -          66,663        68,319            -         68,319
 Cr. Refo rm Fin an .              370            -             370           599            -            599
 NRDA                            1,037            -           1,037             -            -              -
Appropriated                 9,402,247            -       9,402,247    10,300,004            -     10,300,004
Other Fund Types               377,460          878         378,338       338,748         8,401       347,149

Total                   $   9,943,301 $        878 $     9,944,179 $ 10,848,074 $        8,401 $ 10,856,475



Entity fund balances, except for special fund receipt accounts, are available to pay current
liabilities and to finance authorized purchase commitments (see Status of Fund Balances
below). Entity Assets for Other Fund Types consist of special purpose funds and special
fund receipt accounts, such as the Pesticide Registration funds and the Environmental
Services receipt account. The Non-Entity Assets for Other Fund Types consist of clearing
accounts and deposit funds, which are either awaiting documentation for the determination of
proper disposition or being held by EPA for other entities.




14-1-0039                                                                                                       48
     S tatus of Fund Balances :                                                  FY 20 13                      FY 2012

     Unobligated Amounts in Fund Balance:
      A vailable fo r Oblig atio n                                 $            3,008,631 $                   2,609,126
      Unav ailable fo r Oblig atio n                                              199,569                       177,277
     Net Receivables from Inves ted Balances                                   (3,114,699)                   (3,269,572)
     Balances in Treas ury Trus t Fund (Note 36)                                    2,492                          (994)
     Ob ligated Balance n ot yet Dis burs ed                                    9,487,855                    11,005,812
     No n-Bud getary FBW T                                                        360,331                       334,826

         Totals                                                    $           9,944,179 $               10,856,475

The funds available for obligation may be apportioned by OMB for new obligations at the
beginning of the following fiscal year. Funds unavailable for obligation are mostly balances
in expired funds, which are available only for adjustments of existing obligations. For FY
2013 and FY 2012 no differences existed between Treasury’s accounts and EPA’s statements
for fund balances with Treasury.

Note 3. Cash and Other Monetary Assets

As of September 30, 2013 and 2012, the balance in the imprest fund was $10 thousand.

Note 4. Investments

As of September 30, 2013 and 2012 investments related to Superfund and LUST consist of
the following:
                                                       Amortized
                                                                         Interes t          Inves tments ,          Mark et
                                      Cos t           (Premi um)
                                                                        Receivable              Net                 Value
                                                       Dis count
Intragovernmental S ecurities :
 Non -Marketab le     FY 2013     $   4,510,044   $        (60,737) $          6,290   $          4,577,071    $      4,577,071
 Non -Marketab le     FY 2012     $   4,509,646   $       (103,614) $          6,971   $          4,620,231    $      4,620,231



CERCLA, as amended by SARA, authorizes EPA to recover monies to clean up Superfund
sites from responsible parties (RPs). Some RPs file for bankruptcy under Title 11 of the U.S.
Code. In bankruptcy settlements, EPA is an unsecured creditor and is entitled to receive a
percentage of the assets remaining after secured creditors have been satisfied. Some RPs
satisfy their debts by issuing securities of the reorganized company. The Agency does not
intend to exercise ownership rights to these securities, and instead will convert them to cash
as soon as practicable (see Note 6). All investments in Treasury securities are funds from
dedicated collections (see Note 19).

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with funds from dedicated collections. The cash receipts collected from the public
for dedicated collection funds are deposited in the U.S. Treasury, which uses the cash for


14-1-0039                                                                                                                         49
general Government purposes. Treasury securities are issued to EPA as evidence of its
receipts. Treasury securities are an asset to EPA and a liability to the U.S. Treasury.
Because EPA and the U.S. Treasury are both parts of the Government, these assets and
liabilities offset each other from the standpoint of the Government as a whole. For this
reason, they do not represent an asset or liability in the U.S. Government-wide financial
statements.

Treasury securities provide EPA with authority to draw upon the U.S. Treasury to make
future benefit payments or other expenditures. When EPA requires redemption of these
securities to make expenditures, the Government finances those expenditures out of
accumulated cash balances, by raising taxes or other receipts, by borrowing from the public
or repaying less debt, or by curtailing other expenditures. This is the same way that the
Government finances all other expenditures.

Note 5. Accounts Receivable, Net

The Accounts Receivable as of September 30, 2013 and 2012 consist of the following:

                                                          FY 2013          FY 2012
            Intragovernmental:
            Accounts & Interes t Receivable         $      15,163 $          29,027
            Les s : A llowance for Uncollectibles   $        (836) $           (811)
               Total                                $     14,327 $          28,216

            Non-Federal:
            Unbilled Accounts Receivable            $      142,251 $        139,138
            Accounts & Interes t Receivable              2,484,674        2,036,177
            Les s : A llowance for Uncollectibles       (1,777,752)      (1,684,193)
               Total                                $     849,173 $       491,122


The Allowance for Uncollectible Accounts is determined both on a specific identification
basis, as a result of a case-by-case review of receivables, and on a percentage basis for
receivables not specifically identified.




14-1-0039                                                                                     50
Note 6. Other Assets

Other Assets as of September 30, 2013 and 2012 consist of the following:

              Intragovernmental:                                             FY 2013            FY 2012

                A dvan ces to Federal A gencies                   $           243,586 $         252,537
                Advances for Pos tage                                              68               300
                  Total                                           $          243,654 $         252,837


              Non-Federal:
               Travel Advances                                    $               318 $              202
               Other A dvances                                                  5,052              2,625
               Operating Materials and Supplies                                    85                140
               Inventory for Sale                                                 301                167
                 Total                                            $            5,756 $            3,134



Note 7. Loans Receivable, Net

Loans Receivable consists of Asbestos Loan Program loans disbursed from obligations made
prior to FY 1992 and are presented net of allowances for estimated uncollectible loans, if an
allowance was considered necessary. Loans disbursed from obligations made after FY 1991
are governed by the Federal Credit Reform Act, which mandates that the present value of the
subsidy costs (i.e., interest rate differentials, interest subsidies, anticipated delinquencies, and
defaults) associated with direct loans be recognized as an expense in the year the loan is
made. The net loan present value is the gross loan receivable less the subsidy present value.
The amounts as of September 30, 2013 and 2012 are as follows:

                                        FY 2013                                             FY 2012
                             Loans                       Value of As s ets        Loans                    Value of As s ets
                         Receivable,    Allowance*            Related to      Receivable,   Allowance*          Related to
                             Gros s                        Direct Loans           Gros s                     Direct Loans

Direct Loan s
Obligated After FY               30               27                  57             496          (360)                136
1991

   Total             $          30 $              27 $                57 $          496 $        (360) $              136

* Allowance for Pre-Credit Reform loans (prior to FY 1992) is the Allowance for Estimated
Uncollectible Loans, and the Allowance for Post Credit Reform Loans (after FY 1991) is the
Allowance for Subsidy Cost (present value).

During FY 2008, the EPA made a payment within the U.S. Treasury for the Asbestos Loan
Program based on an upward re-estimate of $33 thousand for increased loan financing costs.
It was believed that the payment only consisted of “interest” costs and, as such, an automatic
apportionment, per OMB Circular A-11, Section 120.83, was deemed appropriate.



14-1-0039                                                                                                                      51
However, approximately one third ($12 thousand) of the $33 thousand re-estimate was for
increased “subsidy” costs which requires an approved apportionment by OMB before any
payment could be made. Therefore, the payment resulted in a minor technical Antideficiency
Act (ADA) violation. On October 13, 2009, EPA transmitted, as required by OMB Circular
A-11, Section 145, written notifications to the (1) President, (2) President of the Senate, (3)
Speaker of the House of Representatives, (4) Comptroller General, and (5) the Director of
OMB. On May 18, 2011, EPA sent a supplemental letter to the OMB Director to further
identify the names of the persons responsible for the violation, and that they were not
suspected of willfully or knowingly violating the ADA.

Subsidy Expenses for Credit Reform Loans (reported on a cash basis):

                                                     Interest Rate        Technical         Total
                                                      Re-es timate       Re-es timate
       Up ward Subs idy Rees timate – FY 2013    $                   $                  $    -
       Do wn ward Subs idy Rees timate - FY 2013              302                 96         398
       FY 2013 Totals                           $            302 $               96 $       398

       Up ward Subs idy Rees timate – FY 2012    $            247 $               85 $      332
       Do wn ward Subs idy Rees timate - FY 2012                                             -
       FY 2012 Totals                            $           247 $               85 $       332




14-1-0039                                                                                           52
                      Schedule for Reconciling Subsidy Cost Allowance Balances
                                         (Post-1991 Direct Loans)
                                                                                     FY 2013              FY 2012


Beginning balance of the subsidy cost allowance                                  $         (360)      $         (131)

Add: subsidy expense for direct loans disbursed during the
reporting years by component:
                    Interest rate differential costs
                    Default costs (net of recoveries)
                    Fees and other collections
                    Other subsidy costs
Total of the above subsidy expense components                                    $             -      $             -

Adjustments:
                    Loan Modification
                    Fees received
                    Foreclosed property acquired
                    Loans written off
                    Subsidy allowance amortization                               $             (11)   $         103
                    Other
End balance of the subsidy cost allowance before reestimates                     $             (11)   $         103

Add or subtract subsidy reestimates by component:
(a) Interest rate reestimate                                                               302                  (247)
(b) Technical/default reestimate                                                            96                   (85)
Total of the above reestimate components                                         $         398                  (332)

Ending Balance of the subsidy cost allowance                                     $             27     $         (360)

EPA has not disbursed Direct Loans since 1993.




14-1-0039                                                                                                               53
Note 8. Accounts Payable and Accrued Liabilities

The Accounts Payable and Accrued Liabilities are current liabilities and consist of the
following amounts as of September 30, 2013 and 2012:

                                                                                FY 2013               FY 2012
             Intragovernmental:
             Accounts Payable                                     $                  642 $               2,610
             Accrued Liabilities                                                  55,319                52,411
                 Total                                            $              55,961 $              55,021

             Non-Federal:                                                       FY 2013              FY 2012
             Accoun ts Payable                                    $               78,614 $            107,294
             Advances Payable                                                          3                   11
             Interes t Payable                                                         7                    7
             Grant Liab ilities                                                  378,230              460,835
             Other A ccrued Liabilities                                          162,880              207,134
                 Total                                            $             619,734 $            775,281


Other Accrued Liabilities primarily relate to contractor accruals.

Note 9. General Property, Plant, and Equipment, Net

General property, plant, and equipment (PP&E) consist of software, real property, EPA and
contractor-held personal property, and capital leases.

As of September 30, 2013 and 2012, General PP&E consist of the following:

                                             FY 2013                                              FY 2012
                             Acquisition     Accumulated    Net Book Value        Acquis ition   Accumulated      Net Book
                                  Value      Depreciation                              Value     Depreciation        Value
EPA-Held Equipment       $      273,725 $       (169,592) $         104,133 $        261,279 $      (157,259) $     104,020
Software                        690,335         (272,155)           418,180          615,090        (231,599)       383,491
Contractor Held Equip.           48,158          (18,631)            29,527           59,812          (18,711)       41,101
Land and Buildings              680,344         (210,467)           469,877          672,096        (201,140)       470,956
Cap ital Leas es                  35,440         (26,350)             9,090           35,440          (24,987)       10,453
   Total                 $     1,728,002 $     (697,195) $       1,030,807 $       1,643,717 $      (633,696) $   1,010,021




14-1-0039                                                                                                                     54
Note 10. Debt Due to Treasury

The debt due to Treasury consists of borrowings to finance the Asbestos Loan Program. The
debt to Treasury as of September 30, 2013 and 2012 is as follows:
All Other Funds                               FY 2013                                            FY 2012
                            Beginning           Net            Ending           Beginning          Net             Ending
                             Balance         Borrowing         Balance           Balance        Borrowing          Balance

Intragovernmental:

Deb t to Treas u ry     $          1,063 $         (1,035) $             28 $         2,593 $          (1,530) $       1,063




Note 11. Stewardship Land

The Agency acquires title to certain property and property rights under the authorities
provided in Section 104(j) CERCLA related to remedial clean-up sites. The property rights
are in the form of fee interests (ownership) and easements to allow access to clean-up sites or
to restrict usage of remediated sites. The Agency takes title to the land during remediation
and transfers it to state or local governments upon the completion of clean-up. A site with
“land acquired” may have more than one acquisition property. Sites are not counted as a
withdrawal until all acquired properties have been transferred under the terms of 104(j).

As of September 30, 2013 and 2012, the Agency possesses the following land and land
rights:

                                                               FY 2013                      FY 2012

                      Superfund Sites with
                      Easements
                      Beginning Balance                              36                           36
                      Additions                                       0                            0
                      Withdrawals                                     0                            0
                      Ending Balance                                 36                           36




                      Superfund Sites with
                      Land Acquired
                      Beginning Balance                              34                           34
                      Additions                                       0                            0
                      Withdrawals                                     1                            0
                      Ending Balance                                 33                           34




14-1-0039                                                                                                                      55
Note 12. Custodial Liability

Custodial Liability represents the amount of net accounts receivable that, when collected,
will be deposited to the Treasury General Fund. Included in the custodial liability are
amounts for fines and penalties, interest assessments, repayments of loans, and miscellaneous
other accounts receivable. As of September 30, 2013 and 2012, custodial liability is
approximately $94 million and $119 million, respectively.


Note 13. Other Liabilities

Other Liabilities consist of the following as of September 30, 2013:

                                                      Covered by       Not Covered by
  Other Liabilities – Intragovernmental               Budgetary            Budgetary           Total
                                                      Resources            Resources
  Current
   Emplo yer Contrib ution s & Payroll Taxes $            26,599   $               -    $     26,599
   W CF Adv ances                                          1,526                   -           1,526
   Other A dvances                                         8,814                   -           8,814
   A dvances , HRSTF Cas hout                             32,736                   -          32,736
   Deferred HRSTF Cas h o ut                                 274                   -             274
   Liability for Depos it Funds                                5                   -               5
  Non-Current
   Unfunded FECA Liability                                    -                10,581         10,581
   Unfunded Unemplo yment Liability                                               158            158
   Pay ab le to Treas ury Jud gment Fund                      -                22,000         22,000
     Total Intragovernmental                 $           69,954    $          32,739 $      102,693

  Other Liabilities - Non-Federal
  Current
   Unearned A dvances , Non-Federal               $      103,813   $               -    $    103,813
   Liability fo r Depo s it Fund s , No n-Federal          1,052                   -           1,052
  Non-Current
   Capital Leas e Liab ility                                  -                21,043         21,043
     Total Non-Federal                            $     104,865    $          21,043 $      125,908




14-1-0039                                                                                              56
Other Liabilities consist of the following as of September 30, 2012:

                                                  Covered by       Not Covered by
Other Liabilities – Intragovernmental             Budgetary            Budgetary              Total
                                                  Resources            Resources
Current
 Employer Con tributions & Pay roll Taxes $           25,304   $               -    $       25,304
 W CF A dvan ces                                       1,294                   -             1,294
 Oth er Adv ances                                     23,505                   -            23,505
 Advan ces , HRSTF Cas ho ut                          34,341                   -            34,341
 Deferred HRSTF Cas hout                                 604                   -               604
Non-Current
 Un fund ed FECA Liab ility                               -                10,472           10,472
 Pay able to Treas ury Judgment Fu nd                     -                22,000           22,000
   Total Intragovernmental                $          85,048    $          32,472 $        117,520

Other Liabilities - Non-Federal
Current
 Un earn ed A dv ances , Non -Fed eral       $        72,728   $               -    $       72,728
 Liability for Depos it Fu nds , Non-Federal           9,335                   -             9,335
Non-Current
 Capital Leas e Liability                                 -                23,005           23,005
   Total Non-Federal                         $       82,063    $          23,005 $        105,068



Note 14. Leases

Capital Leases:

The value of assets held under Capital Leases as of September 30, 2013 and 2012 are as
follows:
         Summary of Assets Under Capital Lease:                      FY 2013            FY 2012
         Real Pro perty                                   $           35,285 $           35,285
         Pers onal Property                                              155                155
            Total                                         $           35,440 $          35,440
         Accumulated Amortization                         $            26,350 $          24,987

EPA had two capital leases for land and buildings housing scientific laboratories and
computer facilities. Both leases include a base rental charge and escalation clauses based
upon either rising operating costs and/or real estate taxes. The base operating costs are
adjusted annually according to escalators in the Consumer Price Indices published by the
Bureau of Labor Statistics, U.S. Department of Labor. One lease terminated in FY 2013 and
the other terminates in FY 2025.




14-1-0039                                                                                             57
The total future minimum capital lease payments are listed below.

                 Future Payments Due:
                 Fis cal Year                                          Capital Leas es
                 2014                                              $            4,215
                 2015                                                           4,215
                 2016                                                           4,215
                 2017                                                           4,215
                 After 5 y ears                                                30,910
                 Total Future Minimum Lease Payments                           47,770
                 Les s : Imp uted Interes t                        $          (26,727)
                 Net Capital Lease Liability                                   21,043
                 Liabilities not Covered by Budgetary Resources    $          21,043
                 (S ee Note 13)

Operating Leases:

The GSA provides leased real property (land and buildings) as office space for EPA
employees. GSA charges a Standard Level User Charge that approximates the commercial
rental rates for similar properties.

EPA had two direct operating leases for land and buildings housing scientific laboratories
and computer facilities. The leases include a base rental charge and escalation clauses based
upon either rising operating costs and/or real estate taxes. The base operating costs are
adjusted annually according to escalators in the Consumer Price Indices published by the
Bureau of Labor Statistics. Two leases expire in FY 2017 and FY 2020. These charges are
expended from the EPM appropriation.

The total minimum future operating lease costs are listed below:
                                                             Operating Leas es , Land and
                                                                     Buildings
              Fis cal Year
              2014                                       $                               89
              2015                                                                       89
              2016                                                                       89
              2017                                                                       83
              Beyon d 2018                                                              114

              Total Future Minimum Leas e Payments       $                           464




14-1-0039                                                                                       58
Note 15. FECA Actuarial Liabilities

The Federal Employees’ Compensation Act (FECA) provides income and medical cost
protection to covered Federal civilian employees injured on the job, employees who have
incurred a work-related occupational disease, and beneficiaries of employees whose death is
attributable to a job-related injury or occupational disease. Annually, EPA is allocated the
portion of the long term FECA actuarial liability attributable to the entity. The liability is
calculated to estimate the expected liability for death, disability, medical and miscellaneous
costs for approved compensation cases. The liability amounts and the calculation
methodologies are provided by the Department of Labor.

The FECA Actuarial Liability as of September 30, 2013 and 2012 was $51.8 million and
$46.9 million, respectively. The FY 2013 present value of these estimated outflows is
calculated using a discount rate of 2.727 percent in the first year, and 3.127 percent in the
years thereafter. The estimated future costs are recorded as an unfunded liability.

Note 16. Cashout Advances, Superfund

Cashout advances are funds received by EPA, a state, or another PRP under the terms of a
settlement agreement (e.g., consent decree) to finance response action costs at a specified
Superfund site. Under CERCLA Section 122(b)(3), cashout funds received by EPA are
placed in site-specific, interest bearing accounts known as special accounts and are used for
potential future work at such sites in accordance with the terms of the settlement agreement.
Funds placed in special accounts may be disbursed to PRPs, to states that take responsibility
for the site, or to other Federal agencies to conduct or finance response actions in lieu of EPA
without further appropriation by Congress. As of September 30, 2013 and 2012, cashouts are
approximately $1.012 billion and $736 million respectively.


Note 17. Unexpended Appropriations – Other Funds

As of September 30, 2013 and 2012, the Unexpended Appropriations consist of the
following:


         Unexpended Appropriations:                           FY 2013           FY 2012
          Unobligated
           Available                                 $       1,061,402 $         602,413
           Unav ailable                                         95,043            82,346
          Undelivered Orders                                 7,823,567         9,127,111
            Total                                    $      8,980,012 $       9,811,870




14-1-0039                                                                                          59
Note 18. Commitments and Contingencies

EPA may be a party in various administrative proceedings, actions and claims brought by or
against it. These include:

     Various personnel actions, suits, or claims brought against the Agency by employees
      and others.
    Various contract and assistance program claims brought against the Agency by
      vendors, grantees and others.
    The legal recovery of Superfund costs incurred for pollution cleanup of specific sites,
      to include the collection of fines and penalties from responsible parties.
   	 Claims against recipients for improperly spent assistance funds which may be settled
      by a reduction of future EPA funding to the grantee or the provision of additional
      grantee matching funds.

As of September 30, 2013 and 2012 total accrued liabilities for commitments and potential
loss contingencies is $25.2 million and $25.2 million, respectively. Further discussion of the
cases and claims that give rise to this accrued liability are discussed immediately below.

Litigation Claims and Assessments

There is currently one legal claim which has been asserted against the EPA pursuant to the
Federal Tort Claims and Fair Labor Standards Acts. This loss has been deemed probable,
and the unfavorable outcome is estimated to be between $15 million and $25 million. EPA
has accrued the higher conservative amount as of September 30, 2013. The maximum
amount of exposure under the claim could range as much as $25 million in the aggregate.

Superfund

Under CERCLA Section 106(a), EPA issues administrative orders that require parties to
clean up contaminated sites. CERCLA Section 106(b) allows a party that has complied with
such an order to petition EPA for reimbursement from the fund of its reasonable costs of
responding to the order, plus interest. To be eligible for reimbursement, the party must
demonstrate either that it was not a liable party under CERCLA Section 107(a) for the
response action ordered, or that the Agency’s selection of the response action was arbitrary
and capricious or otherwise not in accordance with law.

Judgment Fund

In cases that are paid by the U.S. Treasury Judgment Fund, EPA must recognize the full cost
of a claim regardless of which entity is actually paying the claim. Until these claims are
settled or a court judgment is assessed and the Judgment Fund is determined to be the
appropriate source for the payment, claims that are probable and estimable must be
recognized as an expense and liability of the Agency. For these cases, at the time of
settlement or judgment, the liability will be reduced and an imputed financing source


14-1-0039                                                                                        60
recognized. See Interpretation of Federal Financial Accounting Standards No. 2,
“Accounting for Treasury Judgment Fund Transactions.”

As of September 30, 2013, there are no material claims pending in the Treasury’s Judgment
Fund. However, EPA has a $22 million liability to the Treasury Judgment Fund for a
payment made by the Fund to settle a contract dispute claim.

Other Commitments

EPA has a commitment to fund the United States Government’s payment to the Commission
of the North American Agreement on Environmental Cooperation between the Governments
of Canada, the Government of the United Mexican States, and the Government of the United
States of America (commonly referred to as CEC). According to the terms of the agreement,
each government pays an equal share to cover the operating costs of the CEC. EPA paid $3
million to the CEC in the period ended September 30, 2013 and $3 million in the period
ended September 30, 2012.

EPA has a legal commitment under a non-cancellable agreement, subject to the availability
of funds, with the United Nations Environment Program (UNEP). This agreement enables
EPA to provide funding to the Multilateral Fund for the Implementation of the Montreal
Protocol. EPA made payments totaling $5.92 million in FY 2013. Future payments totaling
$27 million have been deemed reasonably possible and are anticipated to be paid in fiscal
years 2014 through 2016.




14-1-0039                                                                                   61
Note 19. Funds from Dedicated Collections

                                                       Envi ronmental         LUS T                 S uperfund           Other Funds from           Total Funds from
Balance s heet as of S eptember 30, 2013               S ervices                                                         Dedicated Collections      Dedicated Collections
Assets
Fund Balance with Treasury                         $            358,632 $                38,368 $            40,254 $                   36,767 $                  474,021
Investments                                                           -               1,360,530           3,216,541                          -                  4,577,071
Accounts Receivable, Net                                              -                       -             739,813                      3,193                    743,006
Other Assets                                                          -                     361             108,930                      3,086                    112,377
            Total Ass ets                                       358,632               1,399,259           4,105,538                     43,046                  5,906,475

Other Liabilities                                  $                    - $              8,973 $          1,277,641 $                   42,919 $                1,329,533
             Total Liabilities                     $                    - $              8,973 $          1,277,641 $                   42,919 $                1,329,533

Cumulative Results of Operations                   $            358,632 $             1,390,286 $         2,827,897 $                     127 $                 4,576,942

 Total Liabilities and Net Pos ition               $            358,632 $             1,399,259 $         4,105,538 $                   43,046 $                5,906,475

S tatement of Chang es in Net Cos t for the
Period Ended S eptember 30, 2013
Gross Program Costs                                $                  - $              114,051 $          1,558,007 $                   74,237 $                1,746,295
Less: Earned Revenues                                              (470)                     -              441,908                     54,131                    495,569

             Net Cost of Operations                $                470 $              114,051 $          1,116,099 $                   20,106 $                1,250,726

S tatement of Chang es i n Net Pos ition for the
Period ended S eptember 30, 2013
Net Position, Beginning of Period                  $            325,719 $             1,336,906 $         2,834,688 $                    6,886 $                4,504,199
Nonexchange Revenue- Securities Investments                           -                   4,904              23,810                          3                     28,717
Nonexchange Revenue                                              33,383                 162,167                (430)                       (12)                   195,108
Other Budgetary Finance Sources                                       -                       -           1,062,303                     12,190                  1,074,493
Other Financing Sources                                               -                     360              23,625                      1,166                     25,151
Net Cost of Operations                                             (470)               (114,051)         (1,116,099)                   (20,106)                (1,250,726)

Change in Net Position                             $             32,913 $               53,380 $             (6,791) $                  (6,759) $                  72,743

             Net Position                          $            358,632 $             1,390,286 $         2,827,897 $                     127 $                 4,576,942




14-1-0039                                                                                                                                                                    62
                                                      Environmental     LUS T           S uperfund        Other Funds from          Total Funds from
Balance s heet as of S eptember 30, 2012                S ervices                                         Dedicated Collections     Dedicated Coll ections
A ssets
Fund Balance with Treas ury                       $         325,719 $      35,310 $           95,604 $                   22,518 $                  479,151
Investments                                                       -     1,315,101          3,305,130                          -                  4,620,231
A ccou n ts Receivable, Net                                       -             -            374,791                     10,017                    384,808
Oth er A ssets                                                    -           332            114,354                      3,924                    118,610
             To tal A s s ets                               325,719     1,350,743          3,889,879                     36,459                  5,602,800

Oth er Liab ilities                               $              - $       13,837 $        1,055,191 $                   29,573 $                1,098,601
               To tal Liab ilities                $              - $       13,837 $        1,055,191 $                   29,573 $                1,098,601

Cumulative Res u lts of Operations                $         325,719 $   1,336,906 $        2,834,688 $                    6,886 $                4,504,199

  To tal Liab ilit ies an d Net Po s itio n       $         325,719 $   1,350,743 $        3,889,879 $                   36,459 $                5,602,800

S tatement of Chang es in Net Cos t for the
Period Ended S eptember 30 , 201 2
Gross Program Costs                               $              - $      137,234 $        1,705,893 $                   81,780 $                1,924,907
Les s : Earn ed Revenues                                         -         67,468            305,301                     58,796                    431,565

               Net Co s t o f Op erat io n s      $              - $       69,766 $        1,400,592 $                   22,984 $                1,493,342

S tatement of Chang es in Net Pos ition for the
Period ended S eptember 3 0, 2 0 12
Net Pos ition, Beginning of Period                $         302,677 $    3,575,201 $        3,143,619 $                   5,666 $                7,027,163
Nonexchange Revenue- Securities Inves tments                      -         60,572             26,879                         3                     87,454
No nexch ang e Reven ue                                      23,042        170,497              6,517                        12                    200,068
Oth er Bud getary Finan ce Sources                                -     (2,400,000)         1,033,250                    23,345                 (1,343,405)
Other Financing Sources                                           -            402             25,015                       844                     26,261
Net Cos t of Operatio ns                                          -        (69,766)        (1,400,592)                  (22,984)                (1,493,342)

Change in Net Pos ition                           $          23,042 $   (2,238,295) $       (308,931) $                   1,220 $               (2,522,964)

               Net Po s itio n                    $         325,719 $   1,336,906 $        2,834,688 $                    6,886 $                4,504,199




Funds from Dedicated Collections are as follows:

Environmental Services Receipt Account: The Environmental Services Receipt Account
authorized by a 1990 act, “To amend the Clean Air Act (P.L. 101-549),”, was established for
the deposit of fee receipts associated with environmental programs, including motor vehicle
engine certifications, and water pollution permits. Receipts in this special fund can only be
appropriated to the S&T and EPM appropriations to meet the expenses of the programs that
generate the receipts if authorized by Congress in the Agency's appropriations bill.

Leaking Underground Storage Tank (LUST) Trust Fund: The LUST Trust Fund, was
authorized by the Superfund Amendments and Reauthorization Act of 1986 (SARA) as
amended by the Omnibus Budget Reconciliation Act of 1990. The LUST appropriation
provides funding to respond to releases from leaking underground petroleum tanks. The
Agency oversees cleanup and enforcement programs which are implemented by the states.
Funds are allocated to the states through cooperative agreements to clean up those sites
posing the greatest threat to human health and the environment. Funds are used for grants to
non-state entities including Indian tribes under Section 8001 of the Resource Conservation
and Recovery Act.




14-1-0039                                                                                                                                                     63
Superfund Trust Fund: In 1980, the Superfund Trust Fund, was established by CERCLA to
provide resources to respond to and clean up hazardous substance emergencies and
abandoned, uncontrolled hazardous waste sites. The Superfund Trust Fund is largely
financed through a transfer from general revenues with authorized augmentation through cost
share agreements with state governments and cost recovery from and settlements with
Federal, state, and industry responsible parties. Risks to public health and the environment at
uncontrolled hazardous waste sites qualifying for the Agency's National Priorities List (NPL)
are reduced and addressed through a process involving site assessment and analysis and the
design and implementation of cleanup remedies. NPL cleanups and removals are conducted
and financed by the EPA, private parties, or other Federal agencies. The Superfund Trust
Fund includes Treasury’s collections, special account receipts from settlement agreements,
and investment activity.

Other Funds from Dedicated Collections:

Oil Spill Liability Trust Fund: The Oil Spill Liability Trust Fund, was authorized by the Oil
Pollution Act of 1990 (OPA). Monies are appropriated from the Oil Spill Liability Trust
Fund to EPA’s Oil Spill Response Account each year. The Agency is responsible for
directing, monitoring and providing technical assistance for major inland oil spill response
activities. This involves setting oil prevention and response standards, initiating enforcement
actions for compliance with OPA and Spill Prevention Control and Countermeasure
requirements, and directing response actions when appropriate. The Agency carries out
research to improve response actions to oil spills including research on the use of remediation
techniques such as dispersants and bioremediation. Funding for specific oil spill cleanup
actions is provided through the U.S. Coast Guard from the Oil Spill Liability Trust Fund
through reimbursable Pollution Removal Funding Agreements (PRFAs) and other inter-
agency agreements.

Pesticide Registration Fund: The Pesticide Registration Fund authorized by a 2004 Act,
“Consolidated Appropriations Act (P.L. 108-199),”, and reauthorized until September 30,
2019, for the expedited processing of certain registration petitions and associated
establishment of tolerances for pesticides to be used in or on food and animal feed. Fees
covering these activities, as authorized under the FIFRA Amendments of 1988, are to be paid
by industry and deposited into this fund group.

Reregistration and Expedited Processing Fund: The Revolving Fund, was authorized by the
FIFRA of 1972, as amended by the FIFRA Amendments of 1988 and as amended by the
Food Quality Protection Act of 1996. Pesticide maintenance fees are paid by industry to
offset the costs of pesticide re-registration and reassessment of tolerances for pesticides used
in or on food and animal feed, as required by law.

National Resource Damage and Assessment Fund: In FY 2013, EPA received an advance
of $1.053 million from BP to fund the National Resource Damage and Assessment Fund
(NRDA) to participate in addressing injured natural resources and service resulting from the
Deepwater Horizon Oil Spill.


14-1-0039                                                                                          64
Tolerance Revolving Fund: The Tolerance Revolving Fund, was authorized in 1963 for the
deposit of tolerance fees. Fees are paid by industry for Federal services to set pesticide
chemical residue limits in or on food and animal feed. The fees collected prior to January 2,
1997 were accounted for under this fund. Presently collection of these fees is prohibited by
statute, enacted in the Consolidated Appropriations Act, 2004 (P.L. 108-199).

Exxon Valdez Settlement Fund: The Exxon Valdez Settlement Fund authorized by P.L. 102-
389, “Making appropriations for the Department of Veterans Affairs and Housing and Urban
Development, and for sundry independent agencies, boards, commissions, corporations, and
offices for the fiscal year ending September 30, 1993,”, has funds available to carry out
authorized environmental restoration activities. Funding is derived from the collection of
reimbursements under the Exxon Valdez settlement as a result of an oil spill.




14-1-0039                                                                                       65
Note 20. Intragovernmental Costs and Exchange Revenue

Exchange, or earned revenues on the Statement of Net Cost include income from services
provided to Federal agencies and the public, interest revenue (with the exception of interest
earned on trust fund investments), and miscellaneous earned revenue.
                                                  FY 2013                                                FY 2012
                            Intragovernm     With the                                Intragovernm     With the
                            ental            Public            Total                 ental            Public          Total
Clean Air
 Pro g ram Cos ts       $        166,921 $         903,413 $       1,070,334     $        184,695 $     1,027,551 $     1,212,246
 Earned Revenue                   21,275             1,444            22,719               12,171           1,372          13,543
   NET COST             $        145,646 $         901,969 $       1,047,615     $        172,524 $     1,026,179 $     1,198,703

Clean and Safe Water
 Pro g ram Cos ts       $        405,439 $       4,723,286 $       5,128,725     $        380,760 $     5,177,804 $     5,558,564
 Earned Revenue                    7,733            29,976            37,709                8,220          33,654          41,874
   NET COSTS            $        397,706 $       4,693,310 $       5,091,016     $        372,540 $     5,144,150 $     5,516,690

Land Preservation &
Res toration
 Pro g ram Cos ts       $        341,138 $       1,902,661 $       2,243,799     $        358,603 $     2,175,713 $     2,534,316
 Earned Revenue                   67,803           237,781           305,584               79,371         255,421         334,792
   NET COSTS            $        273,335 $       1,664,880 $       1,938,215     $        279,232 $     1,920,292 $     2,199,524

Healthy Communities &
Ecos ys tems
 Pro g ram Cos ts       $        163,742 $         538,325 $           702,067   $        184,459 $      593,659 $        778,118
 Earned Revenue                   12,732            31,837              44,569             12,092         37,106           49,198
   NET COSTS            $        151,010 $         506,488 $           657,498   $        172,367 $      556,553 $        728,920

Compliance &
Environmental
Stewards hip
 Pro g ram Cos ts       $        194,386 $         686,897 $           881,283   $        216,865 $      605,163 $        822,028
 Earned Revenue                    3,489           186,827             190,316              5,877         76,542           82,419
   NET COSTS            $        190,897 $         500,070 $           690,967   $        210,988 $      528,621 $        739,609

Total
 Pro g ram Cos ts       $      1,271,626 $       8,754,582 $      10,026,208     $      1,325,382 $     9,579,890 $    10,905,272
 Earned Revenue                  113,032           487,865           600,897              117,731         404,095         521,826
   NET COSTS            $      1,158,594 $       8,266,717 $       9,425,311     $      1,207,651 $     9,175,795 $    10,383,446




Intragovernmental costs relate to the source of goods or services not the classification of the
related revenue.

Note 21. Environmental Cleanup Costs

As of September 30, 2013, EPA has 2 sites that require clean up stemming from its activities.
Two claimants’ chances of success are characterized as probable with costs amounting to
$180 thousand that may be paid out of the Treasury Judgment Fund. For sites that had
previously been listed, it was determined by EPA’s Office of General Counsel to discontinue
reporting the potential environmental liabilities for the following reasons: (1) although EPA



14-1-0039                                                                                                                           66
has been put on notice that it is subject to a contribution claim under CERCLA, no direct
demand for compensation has been made to EPA; (2) any demand against EPA will be
resolved only after the Superfund cleanup work is completed, which may be years in the
future; and (3) there was no legal activity on these matters in FY 2013 or in FY 2012.

Accrued Cleanup Cost:

EPA has 15 sites that will require permanent closure, and EPA is responsible to fund the
environmental cleanup of those sites. As of September 30, 2013 and 2012, the estimated
costs for site cleanup were $21.6 million and $21.6 million, respectively. Since the cleanup
costs associated with permanent closure were not primarily recovered through user fees, EPA
has elected to recognize the estimated total cleanup cost as a liability and record changes to
the estimate in subsequent years.

Note 22. State Credits

Authorizing statutory language for Superfund and related Federal regulations requires states
to enter into Superfund State Contracts (SSC) when EPA assumes the lead for a remedial
action in their state. The SSC defines the state’s role in the remedial action and obtains the
state’s assurance that it will share in the cost of the remedial action. Under Superfund’s
authorizing statutory language, states will provide EPA with a 10 percent cost share for
remedial action costs incurred at privately owned or operated sites, and at least 50 percent of
all response activities (i.e., removal, remedial planning, remedial action, and enforcement) at
publicly operated sites. In some cases, states may use EPA-approved credits to reduce all or
part of their cost share requirement that would otherwise be borne by the states. The credit is
limited to state site-specific expenses EPA has determined to be reasonable, documented,
direct out-of-pocket expenditures of non-Federal funds for remedial action.

Once EPA has reviewed and approved a state’s claim for credit, the state must first apply the
credit at the site where it was earned. The state may apply any excess/remaining credit to
another site when approved by EPA. As of September 30, 2013 and 2012, the total remaining
state credits have been estimated at $25.1 million and $24.7 million, respectively.

In Fiscal Year 2013 EPA started recognizing the credits to non-federal sponsors of Great
Lakes Legacy Act (GLLA) agreements. The Legacy Act requires that at least 35 percent of
project costs be provided by a nonfederal sponsor, with U.S. EPA providing up to 65 percent.
Nonfederal sponsors must also cover 100 percent of the project's operation and maintenance
costs. As of September 30, 2013 Great Lakes Legacy Act credits have been estimated at $37
million.

Note 23. Preauthorized Mixed Funding Agreements

Under Superfund preauthorized mixed funding agreements, PRPs agree to perform response
actions at their sites with the understanding that EPA will reimburse them a certain
percentage of their total response action costs. EPA's authority to enter into mixed funding


14-1-0039                                                                                         67
agreements is provided under CERCLA Section 111(a)(2). Under CERCLA Section
122(b)(1), as amended by SARA, PRPs may assert a claim against the Superfund Trust Fund
for a portion of the costs they incurred while conducting a preauthorized response action
agreed to under a mixed funding agreement. As of September 30, 2013, EPA had 3
outstanding preauthorized mixed funding agreements with obligations totaling $4.7 million.
As of September 30, 2012, EPA had 3 outstanding preauthorized mixed funding agreements
with obligations totaling $4.7 million. A liability is not recognized for these amounts until all
work has been performed by the PRP and has been approved by EPA for payment. Further,
EPA will not disburse any funds under these agreements until the PRP’s application, claim
and claims adjustment processes have been reviewed and approved by EPA.

Note 24. Custodial Revenues and Accounts Receivable

                                                               FY 2013          FY 2012
     Fines , Penalties and Other Mis cellaneous Receipts   $      147,623 $        184,211
     Accounts Receivable for Fines, Penalties and Other
     Mis cellaneous Receipts :
      Accounts Receivable                                  $       190,630 $        214,530
      Les s : A llowance for Uncollectible A ccounts               (95,873)          (99,606)

            Total                                          $       94,757 $        114,924

EPA uses the accrual basis of accounting for the collection of fines, penalties and
miscellaneous receipts. Collectability by EPA of the fines and penalties is based on the
PRPs’ willingness and ability to pay.


Note 25. Reconciliation of President’s Budget to the Statement of Budgetary Resources

Budgetary resources, obligations incurred and outlays, as presented in the audited
FY 2013 Statement of Budgetary Resources will be reconciled to the amounts included in the
FY 2014 Budget of the United States Government when they become available. The Budget
of the United States Government with actual numbers for FY 2013 has not yet been
published. We expect it will be published by early 2014, and it will be available on the OMB
website at http://www.whitehouse.gov/.

The actual amounts published for the year ended September 30, 2012 are listed immediately
below:




14-1-0039                                                                                           68
                                                 Budgetary                         Offsetting
                  FY 2012
                                                 Resources      Obligations          Receipts          Net Outlays
Statement of Budgetary Resources           $    16,569,237 $    13,782,833 $       1,163,736 $         13,958,344
Expired and Immaterial Funds*                     (226,301)        (53,198)                                  (415)
Rounding Differences**                               1,064             365               264                   71
Reported in Budget of the U. S. Government $    16,344,000 $    13,730,000 $       1,164,000 $         13,958,000



* Expired funds are not included in Budgetary Resources Available for Obligation in the 

Budget Appendix (lines 23.90 and 10.00). Also, minor funds are not included in the Budget 

Appendix. 

** Balances are rounded to millions in the Budget Appendix. 


Note 26. Recoveries and Resources Not Available, Statement of Budgetary Resources

Recoveries of Prior Year Obligations, Temporarily Not Available, and Permanently Not 

Available on the Statement of Budgetary Resources consist of the following amounts for 

September 30, 2013 and 2012:
                                                                        FY 2013            FY 2012
            Recoveries o f Prio r Year Obligations - Downward
            adjus tments of p rior y ears ’ o blig atio ns       $       286,170 $         571,576
            Tempo rarily Not A vailable - Res cinded A utho rity         (84,183)             (450)
            Permanently Not Available:
             Pay ments to Treas ury                                        (1,035)           (1,529)
             Res cind ed auth ority                                     (437,313)           (58,203)
             Canceled autho rity                                         (16,649)           (30,116)
               Total Permanently Not Available                   $     (45 4,99 7) $       (89,848)



Note 27. Unobligated Balances Available

Unobligated balances are a combination of two lines on the Statement of Budgetary
Resources: Apportioned, Unobligated Balances and Unobligated Balances Not Available.
Unexpired unobligated balances are available to be apportioned by the OMB for new
obligations at the beginning of the following fiscal year. The expired unobligated balances
are only available for upward adjustments of existing obligations.

The unobligated balances available consist of the following as of September 30, 2013 and
2012:
                                                                     FY 2013             FY 2012
                Unexpired Unobligated Balance            $           3,022,122 $         2,609,303
                Expired Unobligated Balance                            184,325             177,101
                    Total                                $       3,206,447 $           2,786,404




14-1-0039                                                                                                            69
Note 28. Undelivered Orders at the End of the Period

Budgetary resources obligated for undelivered orders at September 30, 2013 and 2012 were
$9.23 billion and $10.60 billion, respectively.

Note 29. Offsetting Receipts

Distributed offsetting receipts credited to the general fund, special fund, or trust fund receipt
accounts offset gross outlays. For September 30, 2013 and 2012, the following receipts were
generated from these activities:

                                                                     FY 2013       FY 2012
            Trus t Fund Recoveries                              $      34,987 $      45,413
            Special Fund Environmental Service                         32,917        23,271
            Trus t Fund A ppropriation                               1,087,088     1,075,367
            Mis cellaneous Receipt and Clearing Accounts                18,792        19,685
               Total                                            $   1,173,784 $   1,163,736


Note 30. Transfers-In and Out, Statement of Changes in Net Position

Appropriation Transfers, In/Out:

For September 30, 2013 and 2012, the Appropriation Transfers under Budgetary Financing
Sources on the Statement of Changes in Net Position are comprised of non-expenditure
transfers that affect Unexpended Appropriations for non-invested appropriations. These
amounts are included in the Budget Authority, Net Transfers and Prior Year Unobligated
Balance, Net Transfers lines on the Statement of Budgetary Resources. Details of the
Appropriation Transfers on the Statement of Changes in Net Position and reconciliation with
the Statement of Budgetary Resources follows for September 30, 2013 and 2012:

Transfers In/Out Without Reimbursement, Budgetary:

Fund/Type of Account                              FY 2013            FY 2012
Army Corps of Engineers                  $              -$                 5
  Total Appropriation Trans fers         $              -$                 5
(Other Funds )

Net Trans fers from Inves ted Funds   $           1,176,496 $        3,683,571
Trans fers to A nother A gency                       (5,100)                 -
Allocations Res cinded                               81,518                389
 Total of Net Trans fers on Statement
of Budgetary Res ources               $          1,252,914 $        3,683,960




14-1-0039                                                                                           70
For September 30, 2013 and 2012, Transfers In/Out under Budgetary Financing Sources on
the Statement of Changes in Net Position consists of transfers between EPA funds. These
transfers affect Cumulative Results of Operations. Details of the transfers-in and transfers-
out, expenditure and nonexpenditure, follows for September 30, 2013 and 2012:

Type of Trans fer/Funds                                  FY 20 1 3                               FY 2 01 2

                                               Funds from                              Funds from
                                               Dedicated                               Dedicated
                                               Collections           Other Funds       Collections       Other Funds
Trans fers -in (out) nonexpenditure,
Earmark to S&T an d OIG fu nd s            $         (29,885) $             29,885 $        (32,018) $         32,018
Capital Trans fer                                                                            (5,000)
Trans fers -in nonexpenditure, Oil Spill             12,190                                  23,344
Trans fers -in (out) nonexpenditure,
Superfund                                              5,100                                 (5,099)
Trans fer-out LUST                                                                       (2,400,000)               -
Total Trans fer in (out) without
Reimburs ement, Budgetary                  $        (1 2,5 95 ) $          29,885 $     (2,418,773) $         32,018



Note 31. Imputed Financing

In accordance with SFFAS No. 5, “Accounting for Liabilities of the Federal Government,”
Federal agencies must recognize the portion of employees’ pensions and other retirement
benefits to be paid by the OPM trust funds. These amounts are recorded as imputed costs
and imputed financing for each agency. Each year the OPM provides Federal agencies with
cost factors to calculate these imputed costs and financing that apply to the current year.
These cost factors are multiplied by the current year’s salaries or number of employees, as
applicable, to provide an estimate of the imputed financing that the OPM trust funds will
provide for each agency. The estimates for FY 2013 were $142.5 million ($22.9 million
from Funds from Dedicated Collections, and $119.6 million from Other Funds). For FY
2012, the estimates were $151.6 million ($24.1 million from Funds from Dedicated
Collections, and $127.5 million from Other Funds).

SFFAS No. 4, “Managerial Cost Accounting Standards and Concepts” and SFFAS No. 30,
“Inter-Entity Cost Implementation,” requires Federal agencies to recognize the costs of goods
and services received from other Federal entities that are not fully reimbursed, if material.
EPA estimates imputed costs for inter-entity transactions that are not at full cost and records
imputed costs and financing for these unreimbursed costs subject to materiality. EPA applies
its Headquarters General and Administrative indirect cost rate to expenses incurred for inter-
entity transactions for which other Federal agencies did not include indirect costs to estimate
the amount of unreimbursed (i.e., imputed) costs. For FY 2013 total imputed costs were $7.0
million ($2.2 million from Funds from Dedicated Collections, and $4.8 million from Other
Funds).




14-1-0039                                                                                                               71
In addition to the pension and retirement benefits described above, EPA also records imputed
costs and financing for Treasury Judgment Fund payments made on behalf of the Agency.
Entries are made in accordance with the Interpretation of Federal Financial Accounting
Standards No. 2, “Accounting for Treasury Judgment Fund Transactions.” For FY 2013
entries for Judgment Fund payments totaled $1.4 million (Other Funds). For FY 2012,
entries for Judgment Fund payments totaled $10.0 million (Other Funds).

The combined total of imputed financing sources for FY 2013 and FY 2012 is $150.9 million
and $168.1 million, respectively.

Note 32. Payroll and Benefits Payable

Payroll and benefits payable to EPA employees for the years ending September 30, 2013 and
2012 consist of the following:
                                                 Covered by        Not Covered
     FY 2013 Payroll & Benefits Payable          Budgetary        by Budgetary     Total
                                                 Resources         Resources
     A ccrued Fu nded Payroll & Ben efits    $         71,807 $              - $      71,807
     W ithhold ings Payable                            31,475                -        31,475
     Employer Con tributions Payab le-TSP               6,944                -         6,944
     A ccrued Unfun ded A n nual Leav e                     -           157,729      157,729
        Total - Current                      $       110,226 $         157,729 $    267,955



     FY 2012 Payroll & Benefits Payable

     A ccrued Fu nded Payroll and Benefits   $         72,799 $              - $      72,799
     W ithhold ings Payable                            31,511                -        31,511
     Employer Con tributions Payab le-TSP               4,163                -         4,163
     A ccrued Unfun ded A n nual Leav e                     -           158,254      158,254
        Total - Current                      $       108,473 $         158,254 $    266,727




14-1-0039                                                                                      72
Note 33. Other Adjustments, Statement of Changes in Net Position

The Other Adjustments under Budgetary Financing Sources on the Statement of Changes in
Net Position consist of rescissions to appropriated funds and cancellation of funds that
expired 5 years earlier. These amounts affect Unexpended Appropriations.
                                                     Other Funds          Other Funds
                                                       FY 2013              FY 2012
                  Res cissions to General
                  A ppropriations                $        437,280 $             64,991
                  Canceled General A uth ority             16,681               23,252
                     Total Other Adjus tments    $       453,961 $             88,243



Note 34. Non-exchange Revenue, Statement of Changes in Net Position

Non-exchange Revenue, Budgetary Financing Sources, on the Statement of Changes in Net 

Position as of September 30, 2013 and 2012 consists of the following Funds from Dedicated 

Collections items:

                                                      Funds from              Funds from
                                                      Dedicated               Dedicated
                                                      Collections             Collections
                                                       FY 2013                 FY 2012
            Interes t o n Trus t Fu nd           $             28,716 $                87,454
            Tax Revenu e, Net of Refun ds                     162,212                 170,392
            Fines and Pen alties Rev enu e                      (475)                   6,624
            Special Receipt Fund Revenue                       33,371                  23,053
                Total Nonexchange Revenue        $          223,824 $               287,523




14-1-0039                                                                                       73
Note 35. Reconciliation of Net Cost of Operations to Budget
                                                                                                      FY 2013            FY 2012
RES OURCES US ED TO FINANCE ACTIVITIES
Budgetary Res ources Ob lig ated
  Ob lig atio n s In cu rred                                                                      $     10,090,120 $      13,782,833
  Les s : Sp en d in g A u t h o rit y fro m Offs et t in g Co llectio n s an d Reco v eries              (950,430)       (1,154,627)
  Ob lig atio n s , Net o f Offs et t in g Co llect io n s                                        $      9,139,690 $      12,628,206
  Les s : Offs ettin g Receip ts                                                                        (1,155,006)       (3,544,465)
    Net Ob lig atio n s                                                                           $      7,984,684 $       9,083,741
Other Res ources
  Imp u t ed Fin an cin g So u rces                                                               $        150,927           168,142
  Other Res o urces to Fin an ce A ctiv ities                                                                    -               (76)
     Net Ot h er Res o u rces Us ed to Fin an ce A ct iv ities                                    $        150,927 $         168,066

To t al Res o u rces Us ed to Fin an ce A ct iv it ies                                            $      8,135,611 $       9,251,807

RES OURCES US ED TO FINANCE ITEMS
NOT PART OF THE NET COS T OF OPERATIONS :
  Ch an g e in Bu d g et ary Res o u rces Ob lig at ed                                            $      1,374,392 $       1,138,862
  Bu d getary Offs ettin g Co llection s and Receip ts that
    Do No t A ffect Net Co s t o f Op erat io n s :
       Cred it Pro g ram Co llectio n s In creas in g Lo an Liab ilities fo r
          Gu aran t ees o r Su b s id y A llo wan ces :                                                        819             6,777
        Offs et tin g Receip ts No t A ffectin g Net Co s t                                                 67,917            69,098
  Res o u rces t h at Fin an ce A s s et A cq u is itio n                                                 (106,802)         (145,656)
  Other Res o urces Not A ffectin g Net Co s t                                                                   -                76

To t al Res o u rces Us ed to Fin an ce Items No t Part o f t h e Net Co s t o f Op eratio n s    $      1,336,326 $       1,069,157

To t al Res o u rces Us ed to Fin an ce t h e Net Co s t o f Op erat io n s                       $      9,471,937 $      10,320,964

COMPONENTS OF THE NET COS T OF OPERATIONS THAT WILL                                                   FY 2 0 13          FY 20 12
NOT REQUIRE OR GENERATE RES OURCES IN THE CURRENT PERIOD:
Co mponents Requiring or Generat in g Res o u rces in Fu ture Periods :
  In creas e in A n n u al Leav e Liab ilit y                                                     $           (525) $         (4,590)
  In creas e in En v iro n mental and Dis pos al Liability                                                     (10)              722
  In creas e in Un fu n d ed Co n tin g en cies                                                                 20            15,000
  Up ward / Do wn ward Rees t imat es o f Cred it Su b s id y Exp en s e                                      (730)              189
  In creas e in Pu b lic Exch an g e Rev en u e Receiv ab les                                             (237,175)          (35,266)
  In creas e in W orkers Comp ens ation Co s ts                                                              5,180             2,429
  Ot h er                                                                                                      (49)            1,242
To tal Comp onent s o f Net Co s t of Op eratio ns t h at Require o r
 Gen erat e Res o u rces in Fu t u re Perio d s                                                   $       (233,289) $        (20,274)

Co mponents Not Requiring/ Generating Res o urces :
  Depreciation and A mortization                                                                  $         81,041 $          96,481
  Exp en s es No t Req u irin g Bu d g et ary Res o u rces                                                 105,622           (13,725)
To t al Co mp o n en t s o f Net Co s t t h at W ill No t Req u ire o r Gen erat e Res o u rces   $        186,663 $          82,756

To t al Co mp o n en t s o f Net Co s t o f Op eratio n s Th at W ill No t Req u ire o r          $         (46,626) $        62,482
Generate Res o urces in th e Cu rren t Perio d

Net Cos t of Operations                                                                           $      9,425,311 $      10,383,446




14-1-0039                                                                                                                               74
Note 36. Amounts Held by Treasury (Unaudited)

Amounts held by Treasury for future appropriations consist of amounts held in trusteeship by
Treasury in the Superfund and LUST Trust Funds.

Superfund

Superfund is supported by general revenues, cost recoveries of funds spent to clean up
hazardous waste sites, interest income, and fines and penalties.

The following reflects the Superfund Trust Fund maintained by Treasury as of September 30,
2013 and 2012. The amounts contained in these notes have been provided by Treasury. As
indicated, a portion of the outlays represents amounts received by EPA’s Superfund Trust
Fund; such funds are eliminated on consolidation with the Superfund Trust Fund maintained
by Treasury.

       SUPERFUND FY 2013                      EPA            Treasury          Combined
       Undis tributed Balances
        Uninves ted Fu nd Balance         $            - $          (433) $           (433)
       Total Undis bu rs ed Balan ce                   -            (433)             (433)
       Interes t Receivable                            -            3,851             3,851
       Inves tments , Net                      3,028,841          197,366         3,226,207
          Total As s ets                  $    3,028,841 $        200,784 $       3,229,625

       Liabilities & Equity
       Eq u ity                           $    3,028,841 $        200,784 $       3,229,625
           Total Liabilities and Equity   $    3,028,841 $        200,784 $       3,229,625
       Receipts
        Corpo rate Env iro nmen tal                   -                46                46
        Cos t Reco veries                             -            34,986            34,986
        Fin es & Penalties                            -             3,478             3,478
       Total Reven ue                                 -            38,510            38,510
       Appropriations Received                        -         1,087,088         1,087,088
       Interes t Income                               -            23,810            23,810
          Total Receipts                  $           - $       1,149,408 $       1,149,408
       Outlays
        Trans fers to/from EPA , Net      $    1,097,586 $     (1,097,586) $             -
          Total Outlays                        1,097,586       (1,097,586)               -
       Net Income                         $   1,097,586 $          51,822 $      1,149,408



In FY 2013, the EPA received an appropriation of $1.09 billion for Superfund. Treasury’s
Bureau of Public Debt (BPD), the manager of the Superfund Trust Fund assets, records a
liability to EPA for the amount of the appropriation. BPD does this to indicate those trust
fund assets that have been assigned for use and, therefore, are not available for appropriation.



14-1-0039                                                                                          75
As of September 30, 2013 and 2012, the Treasury Trust Fund has a liability to EPA for
previously appropriated funds of $3.01 billion and $3.17 billion, respectively.


SUPERFUND FY 2012                             EPA       Treasury        Combined
Undis tributed Balances
 Un in v es ted Fu n d Balan ce      $            - $       1,723 $          1,723
To tal Un d is b u rs ed Balan ce                 -         1,723            1,723
Interes t Receivab le                             -         4,530            4,530
In ves t men ts , Net                     3,171,409       129,191        3,300,600
    Total As s ets                   $    3,171,409 $     135,444 $      3,306,853
Liabilities & Equity
Receip ts an d Ou tlay s                          -                              -
Eq u ity                             $    3,171,409 $     135,444 $      3,306,853
    Total Liabilities and Equity     $    3,171,409 $     135,444 $      3,306,853
Receipts
 Co rp o rat e En v iro n men t al               -           (104)           (104)
 Co s t Reco v eries                             -          45,413          45,413
 Fin es & Pen alties                             -           1,176           1,176
To tal Rev en u e                                -          46,485          46,485
A ppro priatio ns Receiv ed                      -       1,075,367       1,075,367
In teres t In co me                              -          26,879          26,879
    Total Receipts                   $           - $     1,148,731 $     1,148,731
Outlays
 Tran s fers to /fro m EPA , Net     $    1,221,693 $   (1,221,693) $           -
   Total Outlays                          1,221,693     (1,221,693)             -
Net Income                           $   1,221,693 $      (72,962) $    1,148,731




14-1-0039                                                                               76
LUST

LUST is supported primarily by a sales tax on motor fuels to clean up LUST waste sites. In
FY 2013 and 2012, there were no fund receipts from cost recoveries. Revenue provisions in
section 40201 of Public Law 112-141 transferred and appropriated $2.4 billion of LUST
funds to the Highway Trust Fund. The amounts contained in these notes are provided by
Treasury. Outlays represent appropriations received by EPA’s LUST Trust Fund; such funds
are eliminated on consolidation with the LUST Trust Fund maintained by Treasury.


       LUST FY 2013                            EPA         Treasury        Combined
       Undis tributed Balances
        Uninv es ted Fu nd Balance     $          - $          2,925 $          2,925
       Total Undis bu rs ed Balan ce              -            2,925            2,925
       Interes t Receivable                       -            2,439            2,439
       Inves tments , Net                    85,858        1,272,232        1,358,090
            Total As s ets             $     85,858 $      1,277,596 $      1,363,454

       Liabilities & Equity
       Equity                          $     85,858 $      1,277,596 $      1,363,454


       Receipts
        Highway TF Tax                 $         - $         103,695 $       103,695
        A irport TF Tax                          -            10,601          10,601
        Inlan d TF Tax                           -                62               62
       Total Reven ue                            -           114,358         114,358
       Interes t Income                          -            (4,904)         (4,904)
            Total Receipts             $         - $         109,454 $       109,454
       Outlays
        Trans fers to/from EPA , Net   $    103,695 $       (103,695) $            -
          Total Outlays                     103,695         (103,695)              -
       Net Income                      $   103,695 $          5,759 $       109,454




14-1-0039                                                                                    77
LUST FY 2012                              EPA          Treasury       Combined
Undis tributed Balances
 Uninves ted Fu nd Balance      $            - $         (2,717) $       (2,717)
Total Undis bu rs ed Balan ce                -           (2,717)         (2,717)
Interes t Receivable                         -             2,442          2,442
Inves tments , Net                                     1,312,659       1,312,659
   Total As s ets               $            - $       1,312,384 $     1,312,384
Liabilities & Equity
Equity                          $                $     1,312,384 $     1,312,384


Receipts
 Hig hway TF Tax                $            - $        159,325 $       159,325
 Airp o rt TF Tax                            -           11,082          11,082
 In lan d TF Tax                             -               90              90
Total Reven ue                               -          170,497         170,497
Interes t Income                             -          128,040         128,040
    Total Receipts              $            - $        298,537 $       298,537
Outlays
 Trans fers to/from EPA , Net   $     2,504,142 $     (2,504,142) $           -
   Total Outlays                      2,504,142       (2,504,142)             -
Net Income                      $   2,504,142 $      (2,205,605) $      298,537




Note 37. Antideficiency Act Violations

The EPA experienced an Antideficiency Act violation on November 18 and 19, 2010 in the
agency's Oil Spill Response Account in the amount of $502,215. The violation occurred
when the EPA made an expenditure in excess of the funds available in the account. The EPA
was participating in the response to the Deepwater Horizon oil spill while simultaneously
responding to a major inland oil spill in Enbridge, Michigan. The violation was rectified on
November 20, 2010, when the EPA was reimbursed with funds from the U.S. Coast Guard.
On October 25, 2012 EPA transmitted, as required by OMB Circular A-11, Section 145,
written notifications to the (1) President, (2) President of the Senate, (3) Speaker of the
House of Representatives, (4) Comptroller General, and (5) the Director of OMB.




14-1-0039                                                                                      78
         Required Supplementary Information (Unaudited)
                              Environmental Protection Agency
                                As of September 30, 2013
                                 (Dollars in Thousands)


1.     Deferred Maintenance

Deferred maintenance is maintenance that was not performed when it should have been, that
was scheduled and not performed, or that was delayed for a future period. Maintenance is the
act of keeping property, plant, and equipment (PP&E) in acceptable operating condition and
includes preventive maintenance, normal repairs, replacement of parts and structural
components, and other activities needed to preserve the asset so that it can deliver acceptable
performance and achieve its expected life. Maintenance excludes activities aimed at
expanding the capacity of an asset or otherwise upgrading it to serve needs different from or
significantly greater than those originally intended.

The EPA classifies tangible property, plant, and equipment as follows: (1) EPA-Held
Equipment, (2) Contractor-Held Equipment, (3) Land and Buildings, and, (4) Capital Leases.
The condition assessment survey method of measuring deferred maintenance is utilized. The
Agency adopts requirements or standards for acceptable operating condition in conformance
with industry practices.

                                                             2013
                         As s et Category:
                         Buildings                     $        34,618
                         EPA Held Eq u ipmen t                     800
                         Total Deferred Maintenance    $        35,418



2.     Stewardship Land

Stewardship land is acquired as contaminated sites in need of remediation and clean-up; thus
the quality of the land is far-below the standard for usable and manageable land. Easements
on stewardship lands are in good and usable condition but acquired in order to gain access to
contaminated sites.




14-1-0039                                                                                         79
                                    Required Supplementary Information (Unaudited)
                                                                  Environmental Protection Agency
                                                                      As of September 30, 2013
                                                                       (Dollars in Thousands)

                         3. Supplemental Combined Statement of Budgetary Resources
                            For the Period Ending September 30, 2013
                                                                                           EPM          S UPERFUND       LUS T               S &T          S TAG            OTHER              TOTAL
BUDGETARY RES OURCES
Un obligated Balance, Brought Forward, October 1:                                    $     301,989 $      1,879,410 $       7,751 $         179,591 $       319,084 $          98,579 $        2,786,404
        Uno bligated b alance brought forward, Octo ber 1, as adju s ted                   301,989        1,879,410         7,751           179,591         319,084            98,579          2,786,404
Recov eries o f Prior Year Un paid Obligations                                              59,256          120,676         4,979            20,020          59,374            21,865            286,170
Other chan ges in unobligated b alance                                                       (8,827)          (8,857)         -               (6,951)            -               (871)           (25,506)
Un obligated balan ce from p rior year budget authority, net                               352,418        1,991,229       12,730            192,660         378,458           119,573          3,047,068
Appropriations (dis cretionary and man datory)                                           2,512,095        1,110,634      103,695            743,791       3,927,447         1,187,577          9,585,239
Spend ing authority from offs etting collectio ns (dis cretionary an d mand atory)          98,195          257,462               5          32,184           2,155           274,259            664,260
Total Budgetary Res ources                                                           $   2,962,708 $      3,359,325 $    116,430 $          968,635 $     4,308,060 $       1,581,409 $    13,296,567


S TATUS OF BUDGETARY RES OURCES
Ob lig atio n s in cu rred                                                           $   2,614,554 $      1,541,048 $    109,359 $          791,353 $     3,557,579 $       1,476,227 $    10,090,120
Unobligated balance, end of year:
    A p p o rt io n ed                                                                     229,227        1,799,707         3,196           146,362         730,024           100,116          3,008,632
    Unapportioned                                                                          118,927           18,570         3,875            30,920          20,457             5,066            197,815
Total unobligated balance, end of period                                                   348,154        1,818,277         7,071           177,282         750,481           105,182          3,206,447
Total S tatus of Budg etary Res ources                                               $   2,962,708 $      3,359,325 $    116,430 $          968,635 $     4,308,060 $       1,581,409 $    13,296,567


CHANGE IN OBLIGATED BALANCE
Unpaid Obl ig ations
Un paid Obligation s , Bro ught Forward, Octo ber 1 (gros s )                        $   1,299,298 $      1,401,705 $    128,440 $          387,416 $     7,889,126 $         205,857 $    11,311,842
Ob lig atio n s in cu rred                                                               2,614,554        1,541,048      109,359            791,353       3,557,579         1,476,227      10,090,120
Ou tlay s (g ro s s )                                                                    (2,685,571)      (1,553,587)    (118,589)          (809,837)     (4,714,758)       (1,449,419)    (11,331,761)
Reco veries of p rior year u np aid ob lig ations                                          (59,256)        (120,676)       (4,979)           (20,020)       (59,374)          (21,865)          (286,170)
Un paid obligations , en d of year (gros s )                                         $   1,169,025 $      1,268,490 $    114,231 $          348,912 $     6,672,573 $         210,800 $        9,784,031


Uncollected Payments
Un co llected cus tomer payments from Federal Sou rces , brought forward, October 1 $     (110,004) $       (15,277) $        -         $    (31,465) $          -      $    (148,768) $        (305,514)
Change in uncollected cus tomer p ay ments from Federal s ources                            11,404            (2,914)         -                4,734             -              (3,886)            9,338
Uncollected cus tomer payments from Federal s o urces , end o f year                 $     (98,600) $       (18,191) $        -         $    (26,731) $          -      $    (152,654) $        (296,176)


Memorandum Entries
Ob lig ated balance, s tart of year                                                  $   1,189,294 $      1,386,428 $    128,440 $          355,951 $     7,889,126 $          57,089 $    11,006,328
Ob lig ated balance, end of y ear (net)                                              $   1,070,425 $      1,250,299 $    114,231 $          322,181 $     6,672,573 $          58,146 $        9,487,855


BUDGET AUTHORITY AND OUTLAYS , NET:
Budg et au tho rity, gros s (dis cretionary an d mandatory)                          $   2,610,290 $      1,368,096 $    103,700 $          775,975 $     3,929,602 $       1,461,836 $    10,249,499
Actual offs etting collections (dis cretion ary and man datory)                           (109,599)        (254,547)              (5)        (36,919)         (2,155)        (270,373)          (673,598)
Change in uncollected cus tomer p ay ments from Federal s ources                            11,404            (2,914)         -                4,734             -              (3,886)            9,338
Budg et au thority, net (dis cretionary an d mand atory)                             $   2,512,095 $      1,110,635 $    103,695 $          743,790 $     3,927,447 $       1,187,577 $        9,585,239


Ou tlays , gro s s (d is cretio nary and mandato ry)                                 $   2,685,571 $      1,553,587 $    118,589 $          809,837 $     4,714,758 $       1,449,419 $    11,331,761
Actual offs etting collections (dis cretion ary and man datory)                           (109,599)        (254,547)              (5)        (36,919)         (2,155)        (270,373)          (673,598)
Ou tlays , net (d is cretio nary an d mand atory)                                        2,575,972        1,299,040      118,584            772,918       4,712,603         1,179,046      10,658,163
Dis trib u t ed o ffs ettin g receip ts                                                         -           (34,986)          -                  -               -          (1,138,798)        (1,173,784)
Agency outlays , net (dis cretionary and mandatory )                                 $   2,575,972 $      1,264,054 $    118,584 $          772,918 $     4,712,603 $          40,248 $        9,484,379



                14-1-0039                                                                                                                                                                 80
                                Environmental Protection Agency 

                         Required Supplemental Stewardship Information 

                           For the Quarter Ended September 30, 2013 

                                     (Dollars in Thousands)



INVESTMENT IN THE NATION’S RESEARCH AND DEVELOPMENT:

EPA’s Office of Research and Development provides the crucial underpinnings for EPA
decision-making by conducting cutting-edge science and technical analysis to develop
sustainable solutions to our environmental problems and employ more innovative and effective
approaches to reducing environmental risks. Public and private sector institutions have long
been significant contributors to our nation’s environment and human health research agenda.
EPA, however, is unique among scientific institutions in this country in combining research,
analysis, and the integration of scientific information across the full spectrum of health and
ecological issues and across the risk assessment and risk management paradigm. Research
enables us to identify the most important sources of risk to human health and the environment,
and by so doing, informs our priority-setting, ensures credibility for our policies, and guides our
deployment of resources. It gives us the understanding, the framework, and technologies we need
to detect, abate, and avoid environmental problems.

Among the Agency’s highest priorities are research programs that address: the development of
alternative techniques for prioritizing chemicals for further testing through computational
toxicology; the environmental effects on children’s health; the potential risks and effects of
manufactured nanomaterials on human health and the environment; the impacts of global change
and providing information to policy makers to help them adapt to a changing climate; the
potential risks of unregulated contaminants in drinking water; the health effects of air pollutants
such as particulate matter; the protection of the nation’s ecosystems; and the provision of near-
term, appropriate, affordable, reliable, tested, and effective technologies and guidance for
potential threats to homeland security. EPA also supports regulatory decision-making with
chemical risk assessments.

For FY 2013, the full cost of the Agency’s Research and Development activities totaled over
$610M. Below is a breakout of the expenses (dollars in thousands):

                                           FY2009      FY2010       FY2011      FY2012       FY2013
       Programmatic Expenses               600,552     590,790      597,558     580,278      531,901
       Allocated Expenses1                 119,630      71,958       80,730     133,637       78,189




1
 Allocated Expenses are calculated specifically for the Required Supplemental Stewardship Information report and
do not represent the overall agency indirect cost rates.


14-1-0039                                                                                                     81
See Section II of the PAR for more detailed information on the results of the Agency’s
investment in research and development. Each of EPA’s strategic goals has a Science and
Research Objective.

INVESTMENT IN THE NATION’S INFRASTRUCTURE:

The Agency makes significant investments in the nation’s drinking water and clean water
infrastructure. The investments are the result of three programs: the Construction Grants
Program which is being phased out and two State Revolving Fund (SRF) programs.

Construction Grants Program: During the 1970s and 1980s, the Construction Grants Program
was a source of Federal funds, providing more than $60 billion of direct grants for the
construction of public wastewater treatment projects. These projects, which constituted a
significant contribution to the nation's water infrastructure, included sewage treatment plants,
pumping stations, and collection and intercept sewers, rehabilitation of sewer systems, and the
control of combined sewer overflows. The construction grants led to the improvement of water
quality in thousands of municipalities nationwide.

Congress set 1990 as the last year that funds would be appropriated for Construction Grants.
Projects funded in 1990 and prior will continue until completion. After 1990, EPA shifted the
focus of municipal financial assistance from grants to loans that are provided by State Revolving
Funds.

State Revolving Funds: EPA provides capital, in the form of capitalization grants, to state
revolving funds which state governments use to make loans to individuals, businesses, and
governmental entities for the construction of wastewater and drinking water treatment
infrastructure. When the loans are repaid to the state revolving fund, the collections are used to
finance new loans for new construction projects. The capital is reused by the states and is not
returned to the Federal Government.

The Agency also is appropriated funds to finance the construction of infrastructure outside the
Revolving Funds programs. These are reported below as Other Infrastructure Grants.

The Agency’s investments in the nation’s Water Infrastructure are outlined below (dollars in
thousands):

                                      FY 2009 FY2010 FY2011 FY2012 FY2013
   Construction Grants                  30,950    18,186    35,339    14,306     6,944
   Clean Water SRF                    836,502 2,966,479 2,299,721 1,925,057 1,976,537
   Drinking Water SRF                  906,803 1,938,296 1,454,274 1,240,042 1,027,613
   Other Infrastructure Grants         306,366 264,227 269,699 196,085 166,050
   Allocated Expenses                  414,460 631,799 548,375 777,375 524,326




14-1-0039                                                                                            82
See the Goal 2 – Clean and Safe Water portion in Section II of the PAR for more detailed
information on the results of the Agency’s investment in infrastructure.

HUMAN CAPITAL

Agencies are required to report expenses incurred to train the public with the intent of increasing
or maintaining the nation’s economic productive capacity. Training, public awareness, and
research fellowships are components of many of the Agency’s programs and are effective in
achieving the Agency’s mission of protecting public health and the environment, but the focus is
on enhancing the nation’s environmental, not economic, capacity.

The Agency’s expenses related to investments in the Human Capital are outlined below (dollars
in thousands):

                                          FY 2009 FY2010 FY2011 FY2012 FY2013
      Training and Awareness Grants        37,981 25,714 23,386 21,233 20,769
      Fellowships                           6,818   6,905  9,538 10,514 11,157
      Allocated Expenses                    8,924   3,973  4,448  7,311  4,118




14-1-0039                                                                                        83
                                                                                      Appendix II

                   Agency Response to Draft Report
                                        December 13, 2013

MEMORANDUM

SUBJECT:	 Response to Office of Inspector General Draft Audit Report No. OA-FY13-0235,
          “Audit of EPA’s Fiscal 2013 and 2012 Consolidated Financial Statements,” dated
          December 9, 2013

FROM:          Maryann Froehlich
               Acting Chief Financial Officer

TO:	           Arthur A. Elkins, Jr.
               Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject draft
audit report. Following is a summary of the agency’s overall position, along with its position on
each of the report recommendations. For those report recommendations with which the agency
agrees, we have provided high-level intended corrective actions and estimated completion dates
to the extent we can.

AGENCY’S OVERALL POSITION

The agency concurs with 10 of the 12 recommendations. We have attached a technical comments
document which explains our position for those report recommendations with which the agency
does not agree and for one recommendation on which the agency agrees.

AGENCY’S RESPONSE TO DRAFT AUDIT RECOMMENDATIONS

Agreements
No. Recommendation                     High-Level Intended                 Estimated Completion
                                       Corrective Action(s)                by Quarter and FY
2      Perform quarterly analytical    Concur. The EPA already             Complete.
       reviews of account activity     performs quarterly reviews at the   (Ongoing quarterly
       at the transaction level to     transactional level.                activity)
       verify that the activity is
       reasonable.
3      Establish timeframes that       Concur. The Office of               1/ 31/14
       property records are to be      Administration and Resources
       entered or updated when a       Management will amend the
       new accountable personal        EPA Personal Property Policy
       property item is received or    and Procedures manual to
       inventoried, relocated,         require posting within 5 days of
       transferred or no longer in     installation or on-site receipt.
       the EPA’s custody.


14-1-0039                                                                                      84
4     Determine and resolve the     Concur.
      issue of missing personal
      property records not in       1) Agency property officers are      1) Updates of property
      agency’s official property    working to identify and update       records complete.
      system.                       any missing personal property        (ongoing activity)
                                    records in the official property
                                    system.

                                    2) In addition, EPA Property         2) 1/31/14 for guidance
                                    guidance will be revised to          revision
                                    ensure all future reconciliations
                                    occur by September 1.
5     Verify capital assets are     Concur. Updates of capital assets    Complete.
      updated in Maximo             records are required per the         (Ongoing quarterly
      (including new equipment,     Agency Personal Property Policy      activity)
      surplused and no longer in    and Procedure Manual (4382).
      the EPA’s custody).
6     Hold a Board of Survey to     Concur.
      address missing items.
                                    1) A Board of Survey has been        1) BOS re-established
                                    identified to address missing        10/31/13
                                    items.

                                    2) A report is anticipated by late   2) Manual updated by
                                    January 2014. The Agency             1/31/14
                                    Personal Property Policy and
                                    Procedure Manual will be
                                    updated to require BOS reports
                                    by September 15.
8     Conduct reviews of the        Concur. The Office of                1/15/14 
      access control lists for all  Environmental Information/            
      agency financial applications Office of Technology Operations
      under their responsibility to and Planning will conduct the
      ensure they are up-to-date    review of access control lists for
      and reflect the current       financial applications under
      necessary system privileges   OTOP/National Computer
      of personnel.                 Center’s purview. 
                                     
9     Issue a memorandum to         Concur. OEI/OTOP will issue a        1/15/14 
      personnel responsible for     memorandum to responsible             
      controlling access to         personnel regarding adherence to
      financial systems             access control procedures. 
      emphasizing the importance
      of following access control    
      procedures – specifically,
      periodic access reviews and
      proper access removal.



14-1-0039                                                                                         85
10    Develop a detailed listing of    Concur. The Office of the Chief      4/30/14
      all OCFO information             Financial Officer will update its
      technology assets by IP          detailed inventory of Internet
      address, system name and         Protocol addresses and system
      server name. Provide the         and server names. Information
      OCFO staff in charge of          will be provided to appropriate
      receiving and analyzing          staff.
      monthly VM reports with
      the detailed listing of
      information technology
      assets. The detailed listing
      should include all OCFO
      information technology
      assets under OCFO
      operational control, as well
      as information technology
      assets operated on behalf of
      OCFO within and external to
      the agency.
11    Issue a memorandum to            Concur. OCFO will issue a            4/30/14
      OCFO staff involved in the       memo to the appropriate staff
      monthly VM process               regarding roles and
      reiterating the importance of    responsibilities related to the
      following roles and              Vulnerability Management
      responsibilities outlined in     review process including
      the VM SOP. Specifically,        procedures on handling items
      the memorandum should            that do not belong to OCFO and
      stress the importance of         related timelines.
      communicating, to OEI, IP
      addresses that do not belong
      to OCFO so they are no
      longer included in OCFO’s
      monthly reports. The
      memorandum should also
      specify timelines when
      responsible personnel must
      update the POA&M
      information in the agency’s
      vulnerability tracking system
      and report the status of
      actions taken to OCFO’s
      primary ISO.
12     Conduct training for staff in   Concur. OEI will develop             TBD
      charge of receiving and          training on monthly VM reports
      analyzing monthly VM             and make it available through the
      reports to ensure they are       agency’s enterprise training tool.
      knowledgeable of the
      agency’s remediation
      process for vulnerabilities.


14-1-0039                                                                             86
Disagreements
No. Recommendation                   Agency Explanation/Response        Proposed Alternative
1     Perform a thorough review      Nonconcur. The agency already      N/A
      of posting models and          has an established process for
      financial system               regularly reviewing posting
      configurations to ensure the   models to ensure that the proper
      proper accounts are            accounts are impacted.
      impacted.
7     Require the Director, Office   Nonconcur. The FD01 posting        N/A
      of Technology Solutions to     model did not cause the
      work with CGI to correct       erroneous postings referenced in
      the FD01 model posting         the draft report. The erroneous
      error.                         posting was due to user errors.


CONTACT INFORMATION
If you have any questions regarding this response, please contact Stefan Silzer, Director, Office
of Financial Management on (202) 564-5389.


Attachment

cc: David Bloom
    Rich Eyermann
    Renee Wynn
    Stefan Silzer
    Jeanne Conklin
    Raffael Stein
    Mel Visnick
    Quentin Jones
    Robert Hill
    Christopher Osborne
    Sherri Anthony
    John O’Connor
    Istanbul Yusuf
    Bridget Shea
    John Showman
    David Shelby
    Anne Mangiafico
    Judi Maguire
    Meg Hiatt
    Wanda Arrington
    Art Budelier
    Cynthia Poteat
    Robert Hairston
    Sheila May
    Scott Dockum


14-1-0039                                                                                       87
   Barbara Freggens
   Sandy Womack
   Lorna Washington
   Susan Lindenblad
   Sandy Dickens
   Janice Kern
   Bernie Davis-Ray




14-1-0039             88
                                                                                      Attachment

Technical Comments Related to OIG’s Draft Audit Report No. OA-FY13-0235, “Audit of
EPA’s Fiscal 2013 and 2012 Consolidated Financial Statements,” dated December 9, 2013


	 OIG Finding - “Federal Financial Management Improvement Act Noncompliance”

“Under FFMIA, we are required to report whether the agency’s financial management systems
substantially comply with the federal financial management systems requirements, applicable
federal accounting standards, and the United States Government Standard General Ledger at
the transaction level. To meet the FFMIA requirement, we performed tests of compliance with
FFMIA Section 803(a) requirements and used the OMB guidance, Memorandum M-09-06-23,
Implementation Guidance for the Federal Financial Management Improvement Act, dated
January 9, 2009, for determining substantial noncompliance with FFMIA.

The results of our tests did not disclose any instances where the Agency’s financial management
systems did not substantially comply with the applicable Federal accounting standards.

We found that the Agency had a high number of accounting corrections due to posting model and
other system errors at the transaction level. However, we do not believe that the errors we found
reached the level of substantial non compliance as described in OMB guidance. We also
reported this issue as a significant deficiency in attachment 1. The results of our tests did not
disclose any other instances of non compliance with FFMIA requirements.”

Agency Response: Do Not Concur

Agency Position on Finding:
The agency’s financial system is in compliance with FFMIA. The OMB guidance does not
require a perfect system. The guidance states, “…FFMIA compliance itself neither requires nor
results in ideal or state-of-the-art system performance or system efficiency; nor does it require
that systems be entirely automated. What FFMIA compliance indicates is that systems routinely
provide reliable financial information consistently, accurately and uniformly.” Accordingly, the
system routinely and substantially provides reliable financial information. Specifically, the
Compass system:
        o	 Gives the EPA the ability to prepare financial statements and other required financial
             and budget reports using information generated;
        o	 Provides reliable and timely financial information for managing current operations;
        o	 Enables the agency to safeguard its assets reliably; and
        o	 Enables the EPA to comply with the U.S. Government Standard General Ledger at
             the transaction level.

Compass is based on a FSIO-compliant, commercial-off-the-shelf software solution from an
OMB-approved shared service provider. Changes to the system, such as the posting model
changes in progress, are accomplished through our disciplined configuration management
process which includes rigorous development, testing and approval procedures. Adhering to a


14-1-0039                                                                                      89
disciplined configuration management process is an integral part of complying with the Federal
Information System Management Act requirements. Compliance with FISMA is cited in OMB
Memorandum M-09-06 as an indicator in determining compliance with FFMIA. Specifically, the
CM process aligns with the FISMA requirement for continuous monitoring of information
systems components and associated security controls. This process ensures the consistency of
financial system performance through the orderly management, documentation, testing, and
review of system changes over the course of the system lifecycle. The CM process enables EPA
to introduce posting model changes in a manner that satisfies fundamental accounting standards
while mitigating the risk of disrupting existing functionality.

Further, the agency disagrees that the number of corrections made in FY 2013 is high given that
the agency processes thousands of transactions on a daily basis. The agency has developed and
implemented a rigorous process to continuously review, analyze and make the necessary
corrections, where needed, to posting models. This process is one of the reasons that we are
confident that we are providing reliable and timely information for managing current operations.
Through this process we identify opportunities for system changes to improve automated
operations. Of particular note, the agency is working on a system change to correct a defect
related to upward and downward adjustments of prior year obligations. To ensure the defect is
corrected in an efficient and effective manner and that we remain FISMA compliant, we are
applying best practices in CM to change the system to correct handling of the upward and
downward adjustments. Pending implementation of the system change, we have adopted manual
procedures involving the use of journal vouchers as part of the process for properly recording
upward and downward adjustments to prior year obligations; we have followed the manual
procedures in FY 2013.

	 OIG Finding “2— EPA’s High Number of Accounting Corrections indicates an
   Internal Weakness”

“The EPA made 396 manual journal voucher entries FY 2013 to correct transaction level errors in
the accounting system, including 138 entries for posting model errors. OMB directs agencies to
apply the United States standard general ledger at the transaction level to generate appropriate
general ledger accounts for posting transactions. The EPA made the accounting corrections due to
posting model and other system configuration errors. Although the EPA corrected the errors that the
EPA and the Office of Inspector General identified, the high number of corrections diminishes the
reliability of the EPA’s accounting system to process transactions accurately. Without a diligent
review of posting models, errors could occur at the transaction level, impacting the reliability of
financial information and increasing the risk that the financial statements could be misstated.”

Agency Response: Do Not Concur

Agency Position on Finding:
The EPA disagrees that the high number of accounting corrections indicates an internal
weakness. We believe the journal vouchers processed were fully supported and were
significantly less in number than the amount stated in OIG’s condition statement. For example,
journal voucher entries made as part of normal financial business processes were erroneously
classified by the OIG as corrections to transaction level errors.




14-1-0039                                                                                        90
Also, The agency does not agree that the number of corrections diminishes the reliability of the
EPA’s financial system. The agency took steps in FY 2012 and 2013 to ensure the integrity of its
financial data and identified many of the issues in the OIG finding. The EPA has a process in
place to proactively analyze and validate posting models. For example, during FY 2013, the
agency identified accounting model issues, corrected them in the system, and made necessary
journal voucher entries in compass to reflect the accurate United States Standard General Ledger
impact. OCFO established an internal GL Issues email box to collect agency identified
accounting model and reference table issues. OCFO prioritized, and tracked progress in resolving
accounting model and reference table issues. We continue to remain vigilant in our efforts to
ensure that Compass accounting models are properly recording accounting events.

As discussed above, the EPA complies with FFMIA.

	 OIG Finding “3—Internal Controls Over EPA’s Accountable Personal Property
   Inventory Process Needs Improvements”
“We found an $11.5 million difference in accountable personal property, including $7 million of
capitalized property, between the agency’s property management system (Maximo) and its fiscal year
(FY) 2013 property certification letters. In addition, our examination found the EPA did not perform
a complete inventory of $3.7 million of sensitive accountable personal property purchased in the last
quarter of FY 2013. As a result, Maximo is missing detailed records for this property and such
property is not included in the EPA’s property certification letters. The EPA requires accountable
personal property to be inventoried annually and equipment to be decaled and added to Maximo
when acquired. Various factors contributed to Maximo being incomplete and inaccurate; however,
the primary cause was that the EPA’s details within Maximo were not updated timely. The agency’s
capitalized property financial activity (which is part of the accountable personal property) is
dependent upon property management officers maintaining an accurate inventory of capitalized
property. Inaccurate accountable personal property records could compromise the EPA’s property
control system, impact the accuracy of the agency’s financial statements, and result in the loss or
misappropriation of assets.”

Agency Response: Concur

Agency Position on Finding: EPA concurs that the inventory purchased from the Customer
Technology Solutions in the last quarter of FY 2013 was not completed. An official agency
inventory could not be conducted until the equipment buy-out was completed and the agency
owned the assets. The purchase of CTS equipment in August 2013 was an unusually large
purchase resulting in the acquisition of approximately 12,000 assets near the end of the year. The
equipment buyout did not occur until late August and Property notification in mid September. As
a result, Facilities Management and Services Division could not inventory all equipment by the
end of FY13. Inventory of these assets was initiated in October and should be completed by
January 2014.

OARM will amend the EPA Personal Property policy and Procedures Manual to require posting
of records within 5 days of installation or receipt on site.




14-1-0039                                                                                         91
   OIG Finding “4— Software Improperly Recorded in Compass”

“The U.S. Environmental Protection Agency’s (EPA) Software In Development and Loss On
Disposition accounts were misstated by $36 million. Federal regulations require agencies to
have systems that record and generate accurate financial information. The posting model
applied to the transaction impacted the wrong accounts. The misstatement impacts the accuracy
and reliability of information reported in the EPA’s financial statements.”
Agency Response: Do Not Concur

Agency Position on Finding: The EPA does not concur with the finding that the posting model
applied to the referenced transaction impacted the wrong actions. The “Software in
Development” and the “Loss on Disposition” postings were incorrect due to system users
applying an incorrect document type. The correct posting for this type of transaction, which
moves software in development status to production, is the Fixed Asset Transfer (FT) document
type. The FT document type allows the system to directly reclassify the asset’s status from
development to production. While OCFO staff were trained by the contractor in FY 2013 on
how to process this transaction using the FT document type, the use of the FD document type
was used in error. To help mitigate the risk of this type of incorrect posting in the future, OCFO
will review with staff the correct posting for the business event of transferring software from the
development account to the production account. Staff will receive refresher training in FY2014.

The resulting postings using the FD01 were corrected with Journal Vouchers (RAS13582JAN &
RAS13583JAN) to allow the general ledger accounts to correctly reflect the intent of the
accounting events that were initiated. As part of the agency’s internal process for reviewing
transaction events, OCFO will review and analyze the document/transaction type FD01 for the
actual disposal entries in FY 2014.




14-1-0039                                                                                        92
                                                                                   Appendix III

                                      Distribution
Office of the Administrator
Chief Financial Officer
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Enforcement and Compliance Assurance
Assistant Administrator for Environmental Information and Chief Information Officer
Assistant Administrator for Solid Waste and Emergency Response
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Policy and Resource Management, Office of Administration and
   Resources Management
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Director, Office of Administration, Office of Administration and Resources Management
Director, Office of Civil Enforcement, Office of Enforcement and Compliance Assurance
Director, Office of Site Remediation Enforcement, Office of Enforcement and Compliance
   Assurance
Director, Office of Technology Operations and Planning, Office of Environmental Information
Director, Office of Budget, Office of the Chief Financial Officer
Director, Office of Financial Management, Office of the Chief Financial Officer
Director, Office of Financial Services, Office of the Chief Financial Officer
Director, Research Triangle Park Finance Center, Office of the Chief Financial Officer
Director, Cincinnati Finance Center, Office of the Chief Financial Officer
Director, Las Vegas Finance Center, Office of the Chief Financial Officer
Director, Office of Planning, Analysis, and Accountability, Office of the Chief Financial Officer
Director, Reporting and Analysis Staff, Office of the Chief Financial Officer
Director, Office of Technology Solutions, Office of the Chief Financial Officer
Director, Financial Policy and Planning Staff, Office of the Chief Financial Officer
Director, Accountability and Control Staff, Office of the Chief Financial Officer
Director, Payroll Management and Outreach Staff, Office of the Chief Financial Officer
Agency Audit Follow-Up Coordinator
Audit Follow-Up Coordinator, Office of the Administrator
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-Up Coordinator, Office of Environmental Information
Audit Follow-Up Coordinator, Office of Grants and Debarment, Office of Administration and
   Resources Management
Audit Follow-Up Coordinator, Office of Financial Management, Office of the
   Chief Financial Officer
Audit Follow-Up Coordinator, Office of Financial Services, Office of the Chief Financial Officer



14-1-0039                                                                                     93
